<html>
<title> - TECHNOLOGIES TO COMBAT WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 110-560]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-560
 
           TECHNOLOGIES TO COMBAT WEAPONS OF MASS DESTRUCTION 

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2008

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-110 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




  
































                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                   JACK REED, Rhode Island, Chairman

EDWARD M. KENNEDY, Massachusetts     ELIZABETH DOLE, North Carolina
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
BILL NELSON, Florida                 SUSAN M. COLLINS, Maine
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   JOHN CORNYN, Texas
HILLARY RODHAM CLINTON, New York     MEL MARTINEZ, Florida

                                  (ii)

  




















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

           Technologies to Combat Weapons of Mass Destruction

                             march 12, 2008

                                                                   Page

Tegnelia, Dr. James A., Director, Defense Threat Reduction 
  Agency; and Director, U.S. Strategic Command Center for 
  Combating Weapons of Mass Destruction..........................     4
Reeves, MG Stephen V., USA, Joint Program Executive Officer for 
  Chemical and Biological Defense, Department of Defense.........    15
Cerveny, Dr. T. Jan, Assistant Deputy Administrator for 
  Nonproliferation Research and Engineering, National Nuclear 
  Security Administration, Department of Energy..................    29

                                 (iii)


           TECHNOLOGIES TO COMBAT WEAPONS OF MASS DESTRUCTION

                              ----------                              


                       WEDNESDAY, MARCH 12, 2008

                            U.S. Senate    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:41 p.m. in 
room SD-106, Dirksen Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Warner, and Dole.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Arun A. Seraphin, professional staff member.
    Minority staff members present: Lynn F. Rusten, 
professional staff member; Robert M. Soofer, professional staff 
member; Kristine L. Svinicki, professional staff member; and 
Diana G. Tabler, professional staff member.
    Staff assistants present: Kevin A. Cronin, Jessica L. 
Kingston, and Brian F. Sebold.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Andrew R. Vanlandingham, assistant 
to Senator Ben Nelson; Nadia Naviwala, assistant to Senator 
Webb; Jennifer Cave, assistant to Senator Warner; Mark J. 
Winter, assistant to Senator Collins; and Lindsey Neas, 
assistant to Senator Dole.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order. Good 
afternoon. The subcommittee meets today to hear testimony on 
technology to combat weapons of mass destruction (WMD). We are 
fortunate to have started with a demonstration of a number of 
technologies being developed or fielded for our military and 
other government agencies, including some technologies that are 
used here in the Homeland to protect our population.
    I want to thank all of the organizations that have brought 
these technologies to us today, including the Defense Threat 
Reduction Agency (DTRA), the Joint Program Executive Office for 
Chemical and Biological Defense (JPEO/CBD), the Defense 
Advanced Research Projects Agency (DARPA), the Air Force, the 
Navy, and a number of Department of Energy (DOE) laboratories.
    I also want to particularly thank Jessica Kingston of our 
committee staff for organizing this technology demonstration. 
Jessica, you did a superb job. Thank you very, very much.
    This technology demonstration is a great opportunity for us 
to see firsthand what you have developed and put into the hands 
of those who we ask to protect us and to detect, decontaminate, 
or defeat threats from chemical, biological, radiological, 
nuclear, or high-yield explosive weapons and materials.
    We are pleased today to have three experts on technology to 
combat WMD. Dr. James Tegnelia is the Director of DTRA, which 
is the Department of Defense's (DOD) agency with the lead for 
protection against and reducing threats from WMD.
    Dr. Tegnelia also serves as the Director of the U.S. 
Strategic Command (STRATCOM) Center for Combating WMD. His 
agency has expertise and responsibility across the spectrum of 
all WMD and supports the combatant commands and other 
governmental agencies and their operational needs relating to 
these weapons.
    Major General Stephen Reeves is the JPEO/CBD at DOD. His 
responsibilities include the research, development, and 
acquisition of all chemical and biological defense equipment 
and medical countermeasures for all of the United States 
military.
    It is one of the less well-known success stories that DOD 
has a single joint program for all chemical and biological 
defense efforts. His organization cooperates extensively with 
both DTRA and with DARPA, both of which conduct critical 
research and development (R&D) on chemical and biological 
defense technologies.
    Dr. Jan Cerveny is the Assistant Deputy Administrator for 
Nonproliferation Research and Engineering at the National 
Nuclear Security Administration (NNSA) at DOE. The NNSA is our 
Nation's expert agency on nuclear weapons and related 
technologies. The labs that this agency works with are among 
the exhibitors at today's tech demo. They conduct R&D on the 
technologies for detecting radiation, and detecting, 
monitoring, and analyzing nuclear weapons activity of other 
nations.
    We hope to learn today about the challenges you all face in 
trying to develop these technologies, the successes that you 
have had, and how this technology fits into our numerous 
efforts to combat WMD. We thank you and all of those who you 
work with for your dedicated efforts to keep our Nation and our 
military forces safe from these dangerous threats.
    We appreciate that your agencies also had a role in the 
response to and decontamination of the Senate office buildings 
after the anthrax attacks of October 2001. We look forward to 
hearing your testimony.
    Now let me turn to Senator Dole for her comments. Senator 
Dole, please.

              STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you very much, Mr. Chairman. I 
certainly join Senator Reed in welcoming our witnesses, and I 
want to thank each of you for your efforts in working to secure 
our Nation and our deployed forces against the threats posed by 
chemical, biological, and nuclear weapons.
    I would also like to thank the participants and presenters 
who have gone to considerable effort to bring us the technology 
demonstrations we have reviewed this afternoon.
    Throughout our history, when this Nation is faced with 
threats to our security and to our Homeland, we have called 
upon our scientists and engineers to rise to the challenge of 
developing the technologies and innovations needed to help 
defeat those threats and to keep us safe.
    The technologies demonstrated here today are impressive, 
indeed, examples of American innovation and the progress we are 
making. The threat of WMD getting into the hands of terrorists 
remains the preeminent threat to our country and our allies. 
Today's hearing will focus on the R&D efforts of the DOD and 
DOE to develop technologies to identify, eliminate, interdict, 
defeat, or destroy WMD and to mitigate the consequences of a 
WMD incident.
    I look forward to the testimony of our witnesses regarding 
R&D programs under their purview to include the Nation's and 
their respective departments' requirements in these areas. How 
well their departments are doing to identify, prioritize, and 
meet those requirements. How they are coordinating their R&D 
efforts with those of other Federal agencies, as well as other 
public and private organizations.
    I am also interested to know whether the fiscal year 2009 
and Future Years Defense Program budget reflects sufficient 
priority, resources, and authorities for these important 
technology R&D programs.
    Dr. Tegnelia, wearing two hats and the responsibilities 
that he has in both of these positions, is responsible for 
developing, integrating, and providing capabilities to reduce 
and counter the threat to the United States and its allies 
posed by WMD. We welcome your testimony of how DTRA integrates 
and coordinates these disparate efforts to meet the 
requirements identified by the Department for combating WMD.
    General Reeves is responsible for the research, 
development, and acquisition of all chemical and biological 
defense equipment and medical countermeasures for the armed 
services and for integrating and coordinating all DOD efforts 
to develop and field chemical, biological, radiological, and 
nuclear defense equipment as well as medical countermeasures 
for the warfighter.
    We welcome your testimony on how DOD establishes 
requirements in this area, how you apportion resources to meet 
those requirements, how efficiently DOD transitions technology 
into fielded capabilities, and to what extent these protective 
capabilities are provided to the Active-Duty, Reserve, and 
National Guard components of the armed services.
    Dr. Cerveny is responsible for R&D to support 
nonproliferation requirements, using the unique facilities and 
scientific skills of the DOE national laboratories in 
partnership with industry and academia. The core mission of her 
organization is to develop the next generation of nuclear 
nonproliferation sensors and detection capabilities.
    We welcome your testimony on how you prioritize technology 
investment and how you coordinate and integrate these R&D 
programs within DOE and with other Federal agencies, including 
DOD and the Department of Homeland Security (DHS).
    Let me again join our Chairman in thanking all of our 
witnesses for their service and certainly for appearing here 
today and giving us your testimony.
    Senator Reed. Thank you very much, Senator Dole, not only 
for your statement, but also for your great collaborative 
efforts on the subcommittee. We enjoy very much--I do--your 
support and your participation.
    Senator Dole. Thank you.
    Senator Reed. The witnesses, your written statements will 
be made part of the record. So feel free to summarize, to cut 
to the point of most importance. We will recognize Dr. Tegnelia 
first. Dr. Tegnelia?

 STATEMENT OF DR. JAMES A. TEGNELIA, DIRECTOR, DEFENSE THREAT 
 REDUCTION AGENCY; AND DIRECTOR, U.S. STRATEGIC COMMAND CENTER 
           FOR COMBATING WEAPONS OF MASS DESTRUCTION

    Dr. Tegnelia. Thank you, Mr. Chairman. Senator Reed and 
Senator Dole, thank you very much for taking this opportunity 
to give all of our engineers and scientists the opportunity to 
display to you some of the important work that they are doing. 
We appreciate this opportunity.
    I also would like to tell you that I appreciate the 
opportunity to appear before you on this panel with two 
associates, General Steve Reeves, who our agency works with on 
a continuing basis with regard to the chemical and biological 
weapons program, and also Dr. Jan Cerveny of the DOE.
    DTRA has the responsibility for being the DOD executor of 
the Nunn-Lugar program, and we work with the DOE on nuclear 
matters associated with the Nunn-Lugar program. So it is a 
pleasure to be on the same panel with them this morning.
    Sir, as you indicated, we have submitted our statement for 
the record. That statement outlines six challenges that DTRA is 
responsible for addressing. In order to be brief, I would like 
to summarize, if I could, just two of those challenges.
    The first one is the subject of loose nuclear weapons and 
what we would do about that, and the second one, if I don't 
take too much time on that subject, is to just summarize 
advancing biological sciences and their impact on WMD.
    Those are the two topics that I would like to talk----
    Senator Reed. I don't mean to artificially cut you off 
either. Take as much time as you like, but you don't have to 
just read the statement.
    Dr. Tegnelia. Yes, sir. I didn't intend to read, sir.
    Let me start with the loose nuclear weapons. As I indicated 
at the start, one of the significant purposes of the Nunn-Lugar 
program is to secure nuclear weapons, secure nuclear material, 
and destroy strategic nuclear weapons delivery systems. We 
think we have, over the 15 years, a pretty good track record 
with regard to that.
    The subject of loose nuclear weapons begins if some of 
those safeguards should happen to fail and a nuclear weapon or 
nuclear material ends up in the hands of a terrorist group with 
the intent to detonate a device either in a city in the United 
States or the city of an allied government. That is the topic 
of loose nuclear weapons.
    Now we are very active in that program and, in fact, have a 
capability today to deal with loose nuclear weapons. It is the 
capability that we have today and the ability to improve that 
capability, which serves as the challenge to the R&D activity.
    The fundamental element associated with finding loose 
nuclear weapons today is the fact that we either must have 
precise intelligence information as to the location of that 
device, or it has to pass through a portal on a foreign border 
or in a harbor before that device could enter into the United 
States. We and the DOE work on those portals, and we have them 
deployed outside of the United States to try to find those 
nuclear devices.
    One of the significant R&D challenges is to increase the 
range from a few tens of meters to hundreds of meters and 
kilometers. So that we no longer are limited by the fact that 
we have to have precise intelligence information or that they 
must pass through a portal in order to be able to find it. That 
is probably the most challenging R&D task that we have today.
    Now we work that problem with the DOE, with the national 
laboratories. You may be familiar with the Global Initiative on 
Combating Nuclear Terrorism, which President Bush and President 
Putin started 2 years ago. One of the elements of that global 
initiative is to do cooperative international research 
associated with this detection of nuclear material and 
detection of nuclear weapons problem, and we work cooperatively 
with several other participants in the global initiative on 
nuclear detection.
    In the event that you find a weapon, the next important 
problem is how do you demilitarize it or disarm it? What we 
would like to do and are working on is research associated with 
how to disarm the weapon at a distance, at stand-off ranges. 
Today, you have to be in close proximity to the weapon.
    Second, to be able to disarm it in a manner that doesn't 
require you to have precise information having to do with the 
construction of the weapon. That represents another significant 
challenge to us, and we are in the process of working that 
activity as well.
    Lord forbid, if both of those fail and a nuclear weapon 
ends up, or nuclear material ends up in a city in the United 
States or in a city of an allied country and there is a 
detonation, then two significant problems occur to the first 
responders. The first problem is the subject of attribution. 
How do we know who did it?
    That is an important question because of three points. The 
first one is if we know how to attribute, then that serves as a 
deterrent in its own right from people doing this kind of an 
action. The second thing is it is very important for us to make 
sure that we can attribute quickly enough that we can stop a 
second or subsequent event from occurring. Then, finally, 
should the decision be made for retribution, then the 
information that you get from attribution is critical in making 
the decisions to do that.
    Now you saw several displays around the room today on the 
subject of attribution. We are just now at the point where the 
R&D is beginning to produce a product which we can field, the 
first nuclear forensics capability for the subject of 
attribution. The biggest challenge that we have now is putting 
that kind of a capability into the field.
    The research challenge is to be able to reduce the time to 
do that analysis and also to make sure that we are getting good 
information from the analysis that we are doing. I will 
indicate that Dr. Cerveny's operation in the DOE, the DHS, and 
the Federal Bureau of Investigation (FBI) are very active in 
developing the capability for attribution.
    The last topic that one would address with loose nuclear 
weapons is the subject of consequence management. The DOD has 
done several exercises with regard to radioactive dispersal 
devices (RDDs) or dirty bombs, and improvised nuclear devices 
(IND) in Hawaii and in Indianapolis.
    We also have been part of a series of interagency exercises 
called TOPOFF associated with RDDs. As I mentioned on the 
Global Initiative for Combating Nuclear Terrorism, we are now 
doing international activities associated with consequence 
management.
    What we found in those exercises is that INDs and RDDs 
represent a very large spectrum of consequences, from few 
deaths and minimal economic disruption to large numbers of 
deaths and significant economic disruption on the part of both 
INDs and RDDs. I believe our local responders and the State 
units, assisted by the Federal Government, are capable of 
handling the lower end of this spectrum.
    Our exercises show that the local responders are capable of 
dealing with this kind of an activity. It is when you get 
closer to the higher end of the spectrum, where there are 
significant yields and significant numbers of deaths, that the 
operational and research challenges are in the extreme. That 
represents a significant research challenge to us.
    You saw some activities here associated with 
decontamination. You saw some activities associated with 
medical therapeutics for radiation poisoning. Finally, you saw 
modeling that was going on in this room to help the first 
responders and knowing the very difficult environment that they 
are going to be working in.
    Sir, ma'am, that completes my comments with regard to loose 
nuclear weapons. I would just ask you for a time check. Do I 
have a few minutes to talk about biological sciences?
    Senator Reed. You are still making sense. Go on. 
[Laughter.]
    Dr. Tegnelia. Thank you, sir. That is the check.
    Let me spend just a few minutes on the biological thing, as 
I don't want to take time away from the other members of the 
panel.
    Biological sciences today represents the most advancing 
scientific discipline worldwide. The fact is we are probably in 
a situation which is analogous to the dawning of the atomic age 
in the 1930s before somebody had really demonstrated or 
designed such a weapon. So the fact is that we are in the 
process of trying to develop a toolkit in order to be able to 
be prepared for the advancing of biological sciences and the 
fact that almost every advancing science has a negative side to 
it, even though it has been beneficial to mankind.
    I believe that our significant challenge is being prepared 
for, having the toolkit available for advancing biological 
sciences, and I just want to summarize two things very briefly.
    The first thing is you are probably aware of the fact that 
very important research is being done on the part of the Nunn-
Lugar program. It is creating a series of central research 
laboratories in Central Asia, where they are collecting rare 
pathogens, centralizing them, and categorizing them. Those 
pathogens are challenging us to develop therapeutics that 
respond to those pathogens should an entity be able to isolate 
them and create a biological weapon from a rare species.
    So that is the first problem. How do you detect the 
presence of it? How do you understand the pathogens you are 
going to be dealing with, and how do you prepare for those?
    Then there is a second program to respond to those diseases 
should they become present in our forces or to civil society. 
Now, General Reeves is going to talk to a program called the 
Transformational Medical Technology Initiative (TMTI). I will 
just summarize it by saying that DTRA works with General 
Reeves's operation to create medical therapeutics that can 
respond to this advancing biological sciences activity, and 
also produce therapeutics rapidly and safely in order to be 
able to respond quickly to the presentation of a new biological 
weapon or a rare strain of a particular disease.
    Sir, ma'am, with that in mind, I would like to summarize 
and just tell you that I appreciate the opportunity to be on 
this panel today and represent the effort of DTRA. This is our 
10th anniversary. I think it is a witness to the agency's 
founding fathers' foresight that they were concerned about WMD 
in the hands of terrorists long before September 11 occurred. I 
think you can see that there are dedicated people that are 
concerned about that.
    I also, as you mentioned, in my second hat work with 
STRATCOM. STRATCOM is the element of the combatant commanders 
who are responsible for making this capability available to the 
combatant commanders to help combat WMD. General Chilton, who 
is the Commander of STRATCOM, is an asset to us producing what 
are highly expensive, and, therefore, scarce units, getting the 
concept of operations prepared for those units and getting them 
out into the field and exercised in order to be prepared for 
this advance of WMD.
    So, again, I thank you very much, both for your 
participation with our displays and for your attention this 
afternoon.
    [The prepared statement of Dr. Tegnelia follows:]
                Prepared Statement by Dr. James Tegnelia
                              introduction
    Mr. Chairman and members of the subcommittee, it is an honor to be 
here today to address the technology being developed by the Defense 
Threat Reduction Agency (DTRA) to combat the threat of Weapons of Mass 
Destruction (WMD). This year, we in DTRA are celebrating the agency's 
10th anniversary. DTRA was created in 1998 to consolidate into a single 
agency Department of Defense (DOD) elements that had a role in 
responding to threats posed by WMD. Three overarching national 
imperatives drove that decision: countering terrorism, sustaining the 
Nation's nuclear deterrent, and strengthening the Department's WMD 
nonproliferation, counterproliferation and consequence management 
capabilities. Ten years later, events demonstrate these imperatives are 
even more demanding and critical.
    I am pleased to report that, in partnership with other U.S. 
Government (USG) organizations, industry, academia, nongovernmental 
organizations, and allies and friendly nations, DTRA has expanded the 
Nation's ability to reduce and, where possible, eliminate or minimize 
the threats posed by traditional chemical, biological, radiological, 
nuclear, and large-scale conventional explosive (CBRNE) weapons.
    This progress could not have occurred without the strong support of 
Congress, and I wish to thank this committee for your approval of our 
budget request and of the legal authorities we have sought over the 
years. I am particularly appreciative of your approval of the full DTRA 
fiscal year 2008 budget request, which represented the most significant 
change in the agency since its establishment. Your extension of and 
revisions to the Counterproliferation Program Review Committee (CPRC) 
statute last year will also strengthen the interagency partnerships 
that are essential to focusing the full national capability against WMD 
threats.
    My remarks today focus on the progress we have made in developing 
advanced technologies for the Combating WMD (CWMD) mission. I will 
address our Research, Development, Test and Evaluation (RDT&E) projects 
in the context of the broader DTRA CWMD mission, which also includes 
our Combat Support Agency, other operational mission support, and Nunn-
Lugar Cooperative Threat Reduction (CTR) Program responsibilities. I 
will begin with a review of CWMD mission accomplishments and describe 
the agency today. My discussion of our nuclear-related technology will 
take place in the context of a ``loose nuclear weapon;'' that is, a 
nuclear weapon in terrorist hands with its ultimate target being a city 
in America. I will tie that discussion to the items that DTRA has 
displayed in the back of this room as part of the technology 
demonstration. I will conclude with a description of the future for 
DTRA.
                 combating wmd mission accomplishments
    DTRA was an organization ahead of its time when it was created 
because today's comprehensively defined and structured CWMD mission did 
not yet exist. The idea of consolidating a loose confederation of 
entities that worked in the WMD arena--the Defense Special Weapons 
Agency, the On-Site Inspection Agency, the Defense Technology Security 
Administration (DTSA), and the CTR Program Office in the Office of the 
Secretary of Defense (OSD)--was something quite new. At the time of its 
establishment, the agency was also designated as a Combat Support 
Agency and charged with expanding the level of WMD-related support 
being provided to the combatant commanders (COCOMs). The new agency was 
also assigned responsibility for executing the science and technology 
(S&T) portion of the Chemical/Biological Defense Program (CBDP) and was 
given responsibility for funds management of all CBDP activities. An 
important new feature of DTRA was the Advanced Systems and Concepts 
Office, charged with looking at the toughest questions and issues 
related to current and over-the-horizon WMD threats, and encouraging 
new thinking about how we respond to these threats.
    Despite ambiguity on what it meant to ``reduce the threat'' and in 
the absence of a comprehensive high level guiding strategy that linked 
nonproliferation, counterproliferation, and consequence management with 
the deterrence missions of the COCOMS, the new agency came together and 
executed its combined responsibilities with greater efficiency. Over 
time, changes were made to the original concept for DTRA. The most 
notable was an early decision by OSD and Congress that the broad 
technology security mission of DTSA more properly resided in the Office 
of the Under Secretary of Defense for Policy.
    As the Nation came to better understand the nature of the emerging 
WMD threat, particularly the attractiveness of CBRNE weapons to 
terrorists, the full potential of DTRA became clearer to all. In 
addition to executing RDT&E programs and providing operational support, 
DTRA helped shape the development of CWMD policy, strategy, and 
operational concepts. Within a few years of establishment, DTRA was 
widely regarded across the department and among many other USG 
organizations as the ``go to'' agency on WMD matters.
    A defining moment in the agency's history occurred in December 2002 
with the publication of the National Strategy to Combat WMD. This 
strategy provides the framework of three conceptual pillars--WMD 
nonproliferation, counterproliferation, and consequence management--
that defined the CWMD mission. Subsequent strategy documents such as 
the National Military Strategy to Combat WMD (February 2006) provided 
more substance to the overarching national strategy. Recent DOD 
direction, including the 2006 Quadrennial Review and biennial planning 
guidance, has increasingly emphasized the need for expanded 
nonproliferation capabilities such as ``security cooperation and 
partner activities'' and ``threat reduction cooperation'' that support 
COCOM ``Phase 0'' operations to shape more favorable security 
environments; better means for locating and tracking WMD and related 
materials; expanded WMD elimination capabilities; improved strike 
capabilities against hard and deeply buried targets and far more 
effective nuclear detection, interdiction, and forensics capabilities.
    A second defining moment in DTRA's history was the Secretary of 
Defense's decision in January 2005 to designate the Commander, U.S. 
Strategic Command (CDRUSSTRATCOM) as the lead combatant command for the 
integration and synchronization of DOD CWMD efforts in support of USG 
objectives. Shortly afterwards, the CDRUSSTRATCOM established the 
Strategic Command Center for Combating WMD (SCC-WMD) to integrate and 
synchronize DOD efforts to combat WMD. The Center is working to develop 
and maintain global situational awareness of WMD activities, advocate 
for CWMD capabilities, and to assist with CWMD-related planning, while 
shifting emphasis away from DOD-centric approaches toward interagency 
solutions.
    Because DTRA and its predecessor organizations had a long history 
of providing technical and operational support to Strategic Command 
(STRATCOM) nuclear mission, and in recognition of the DTRA 
responsibility as the Department's Combat Support Agency for providing 
WMD knowledge, expertise, and capabilities to the COCOMs, the DTRA 
director was ``dual-hatted'' as the Director for the SCC-WMD. To better 
leverage DTRA capabilities and to accelerate the operational stand-up 
of the SCC-WMD, the Center was co-located with the agency at the new 
Defense Threat Reduction Center at Fort Belvoir, VA, which opened in 
November 2005. The SCC-WMD achieved Initial Operating Capability (IOC) 
on January 26, 2006, and Full Operating Capability in December 2006. 
Thus, there is now a seamless working relationship between the COCOM 
responsible for the nuclear deterrent and the integration and 
synchronization of the CWMD mission and the defense agency with 
technical and operational expertise in both of these missions.
    I emphasize this point because it highlights the value of expanded 
partnerships and collaborative efforts across the DOD, the USG, the 
private sector, and partner nations. Defeating the WMD threat will 
require the sharing of situational awareness and the full mobilization 
of national and international expertise and capabilities. DTRA's 
relationship with STRATCOM and the other COCOMs is a point of departure 
from which new interagency relationships across the USG are being 
developed. A successful example is the partnership that has developed 
between DTRA and the Intelligence Community (IC). Since 2002, DTRA and 
the Defense Intelligence Agency (DIA) have jointly addressed the Hard 
Target Defeat problem through the DTRA Hard Target Research and 
Analysis Center (HTRAC) partnership with DIA's Underground Facility 
Analysis Center to locate, characterize, and assess the options against 
tunnels and deeply buried bunkers related to WMD production, storage, 
delivery systems, and command and command and control. This concept of 
teaming DTRA R&D expertise with DIA's intelligence expertise has proven 
so successful that we have expanded our partnership to encompass the 
entire CWMD mission area in the form of the new Counter WMD Analysis 
Cell.
    The private sector--industry, academia, and non-governmental 
organizations--also offer WMD expertise essential to a national effort. 
DTRA's predecessor organizations had well-developed ties with non-
government partners that have both expanded and deepened over the 
years. For example, through the University Strategic Partnership, DTRA 
has formed a close relationship with university consortia led by the 
University of New Mexico and Penn State that support our S&T projects 
to create the next generation of national WMD experts.
    There is also much to be gained by expanding partnerships with 
allies and friendly nations. Examples of such partnerships include 
structured programs such as the CTR Program to programs with wider 
venues, such as the Proliferation Security Initiative and the Global 
Initiative to Combat Nuclear Terrorism. We in DTRA believe that there 
are many opportunities to build and expand regional partnerships and 
integrate these as appropriate into global efforts. In addition, DTRA 
is partnering with other nations on technology development in support 
of force protection, hard and deeply buried target defeat, chemical/
biological defense, and nuclear detection.
    Another defining moment in the transformation of our CWMD 
capabilities was the reassessment and revitalization of our research 
and development program beginning in 2006. Of particular note, we 
initiated a systems approach to CWMD which provided greater integration 
between RDT&E projects and Operations and Maintenance (O&M) activities, 
and focused these efforts on addressing capability gaps. With the 
support of Congress, we have added a CWMD Basic Research (6.1) Program 
that leverages the basic research being performed by the Services, 
DARPA, and others. Congress also supported the establishment of a WMD 
Defeat Capabilities RDT&E (6.5) program that will increase our ability 
to directly support the special needs of the warfighters.
                               dtra today
    DTRA is now a ``full service'' CWMD organization with programs and 
activities that span threat anticipation; collaboration with and 
support to the IC; global WMD situational awareness and information 
sharing across DOD and the USG; research and development in partnership 
with other USG organizations, academia, industry, other non-
governmental organizations, and allies and friends across the globe; 
technical and operational ``reachback'' support for an expanding list 
of customers; WMD-related planning, exercise support, and subject 
matter augmentation for the COCOMs; arms control; cooperative threat 
reduction activities; vulnerability assessments and force protection; 
support to the DOD nuclear mission; and collaborative training, 
education, and workforce development to maximize the national wealth of 
WMD expertise.
    We are an organization of over 1,900 civilian and military 
personnel located primarily at Fort Belvoir, VA, and Kirtland Air Force 
Base, NM. Several hundred of our military and civilian personnel are 
assigned to field offices and military commands across the U.S., the 
Pacific, Asia, and Europe. Civilians make up about 60 percent of our 
workforce, with the balance being uniformed personnel provided by the 
Services. We are also assisted by an extensive contractor base.
    Our $1.2 billion annual direct appropriation includes RDT&E 
programs, O&M activities, Former Soviet Union Threat Reduction/
Cooperative Threat Reduction (FSUTR/CTR) Program funding, and 
Procurement accounts. DTRA is also responsible for managing the S&T 
portion of CBDP, which is about $612 million in the fiscal year 2009 
budget request, and serves as the funds manager for the approximately 
$911 million in the fiscal year 2009 CBDP acquisition program. This 
means that we manage an annual budget portfolio of about $2.8 billion.
    Over the past 2 years, we have been developing the concept of 
``campaigns''--focused and integrated efforts across the agency and our 
appropriations accounts designed to focus on specific efforts to expand 
our CWMD capabilities. In addition to integrating our efforts across 
the agency, campaigns guide us in supporting departmental and national 
CWMD goals, direct our current program, and identify capabilities that 
will be needed in the future. Our campaigns span the entire CWMD 
mission spectrum and encompass nonproliferation, counterproliferation, 
and consequence management. Campaigns directly support the eight 
underlying CWMD military missions identified in the National Military 
Strategy to Combat WMD: Security Cooperation and Partner Activities, 
Threat Reduction Cooperation, Interdiction, Elimination, Offensive 
Operations, Active Defense, Passive Defense, and Consequence 
Management.
    The DTRA campaigns and their recent accomplishments are as follows:
Campaign 1 - Situational Awareness
    This campaign seeks to develop and sustain global situational 
awareness of WMD and to support decisive action. Capabilities being 
sought include: DTRA CWMD Common Operating Picture; a common 
intelligence picture of WMD; and expansion of partnerships development 
within the CWMD community of interest. This campaign also provides 
continuous direct support to the SCC-WMD. Among the products developed 
by this campaign and now online are the Situational Awareness CWMD 
Information Portal that supports a common operating picture, and the 
Interagency CWMD Database of Responsibilities, Authorities, and 
Capabilities (INDRAC) that provides the CWMD community of interest a 
comprehensive and accessible accounting of agency responsibilities, 
legal authorities, and CWMD capabilities. We also established ties with 
the Department of Homeland Security (DHS), Center for Disease Control, 
Department of Health and Human Services (DHHS), and Department of State 
(DOS) to monitor indications and warnings of biological attacks and 
pandemic diseases.
Campaign 2 - Control WMD Materials and Systems Worldwide
    DTRA develops technologies, produces concepts of operation, 
executes operations and programs, and fosters international 
partnerships to prevent the proliferation of WMD or WMD-related 
capabilities. Its goals are to improve control over WMD; reduce the 
size and shape of the WMD threat; build partner capacity to combat WMD; 
and improve capabilities to perform WMD interdiction and elimination 
operations. Several significant accomplishments have resulted from this 
campaign. In 2007, the DOD International Counterproliferation Program 
(ICP), for which DTRA is the Executive Agent, provided 44 training 
missions in 16 countries to improve the capabilities of border guards, 
customs officials, and law enforcement organizations. DTRA also is 
promoting regional CWMD collaboration with the goal of establishing a 
global network that strengthens our defense-in-depth against WMD. We 
initiated this concept in the Black Sea region by hosting conferences, 
sponsoring a regional exercise, and developing links to regional 
organizations. DTRA also supported the establishment of STRATCOM's 
Joint Elimination Coordination Element (JECE) to perform activities and 
operations necessary to train and prepare joint forces and Command and 
Control elements to conduct WMD elimination missions. The JECE achieved 
Interim Operational Capability in August 2007 through its participation 
in Exercise Ulchi Focus Lens 2007 in South Korea.
Campaign 3 - Eliminate WMD as a Threat to Warfighter
    The focus of this campaign is to develop and manage applicable 
research investment strategies and coordinate science and technology 
efforts that provide DOD with operational capabilities, research and 
development, and technical subject matter expertise for Passive 
Defense, Installation Protection, Consequence Management and System 
Survivability. During 2007, DTRA performed mission survivability, 
vulnerability, and critical infrastructure assessments in support of 
OSD, the Joint Staff, the COCOMs, the Services, other DOD components, 
the IC, and DHS at home and overseas. Under joint management with the 
Department of the Army, the Transformational Medical Technology 
Initiative should provide capabilities against future genetically 
engineered biological threat agents for which our present 
countermeasures might be ineffective. This ambitious initiative holds 
great promise for not only developing broad spectrum medical 
countermeasures, but for also paving the way to establishing an 
enduring capability for DOD and the Nation to meet the emergence of a 
novel biological threat with an accelerated sequence of steps that 
result in production of medical products within a responsive timeframe. 
The Chemical and Biological Defense Programs seeks to exploit emerging 
nanotechnology, biotechnology, information technology, and cognitive 
science technologies to support detection and individual and collective 
protection. We are working with the Army on advanced materials 
integration for the next generation ground soldier system, and seeking 
opportunities to coordinate early with Major Defense Acquisition System 
development programs to determine where more seamless integration of 
burden-free protection technologies may render our warfighters immune 
from concerns about biological and chemical agents.
Campaign 4 - Protect the Homeland from WMD
    This campaign is designed to provide crisis and consequence 
management support to the DOD and civil authorities to prevent WMD 
attacks and/or mitigate their consequences on the homeland and also 
focuses on sharing these capabilities with international partners. It 
leverages expertise through education, training, and exercises; 
operating concepts; and technologies and tools to develop CWMD-related 
homeland defense capabilities. An important element of this campaign is 
the Defense Threat Reduction University, which we envision becoming a 
premier national capability to integrate Federal, state, and local 
CBRNE training and education. DTRA deploys specialized Consequence 
Management Teams and provides WMD Reachback expertise and decision 
support tools from its Operations Center to the U.S. Northern Command 
and the National Guard WMD Civil Support Teams. We share our mission 
assurance expertise with Federal, State, local, and non-governmental 
organizations to enhance Critical Infrastructure and Defense Industrial 
Base protection. DTRA also sponsored the U.S. European Command's 
Exercise Flexible Response 08, a command post consequence management 
exercise involving multiple CBRNE events. Conducted overseas, this 
exercise demonstrates the defense-in-depth that is essential to 
protecting the U.S. homeland and relied upon the same basic consequence 
management expertise that DTRA could provide in response to WMD events 
inside our border.
Campaign 5 - Transform the Deterrent
    This campaign is the cornerstone of our continuing support 
operations to the U.S. strategic deterrent. Our nuclear safety, 
security, control and reliability programs are all integral parts of 
our enduring nuclear strategic support mission. Additionally, this 
campaign is designed to provide research and development, as well as 
operational and technical expertise, to support the COCOMs in holding 
WMD and associated infrastructure and leadership at risk through 
offensive means. The goals are to provide the COCOMs the capability to 
identify, characterize, plan, interdict, target, execute, and assess 
any WMD-related target; and to have all offensive options, to include 
conventional, unconventional, and nuclear capabilities to dissuade, 
deter, and defeat potential adversaries. For example, we have several 
efforts underway to defeat hard and deeply buried targets, beyond the 
HTRAC which I previously mentioned, including the development of the 
Massive Ordnance Penetrator (MOP) which will greatly improve our 
conventional hard target defeat capability; and, target assessment 
capabilities including expanded reliance upon advanced modeling and 
simulation. In August 2007, at the request of the U.S. Central Command 
Air Forces, a team of DTRA personnel was sent to the Tora Bora region 
of Afghanistan to perform assessments at several cave sites that had 
been bombed by the U.S. The technical information gained by this team 
has advanced our understanding of the effectiveness of our weapons 
against such important targets. DTRA also supports the U.S. nuclear 
deterrent by providing tools for hardening critical systems against 
nuclear weapons effects and providing support to the STRATCOM nuclear 
planning mission. We also provide OSD and the Joint Staff with an 
independent assessment of nuclear weapons capable units, and provide 
assurance that Personnel Reliability Programs are properly managed at 
the nuclear-capable COCOMs. Through the Mighty Guardian Force-on-Force 
test series, we evaluate nuclear security policy. We have developed and 
fielded the Defense Integration and Management of Nuclear Data Services 
program that provides a DOD-wide stockpile database system of record 
for nuclear weapons in DOD custody.
Campaign 6 - Business Excellence
    Our Business Excellence campaign supports DTRA in its mission 
through timely, effective, efficient, and productive business 
processes; globally available secure information 24/7; and a diverse, 
agile, and highly competent workforce. It is improving, simplifying, 
and automating business processes, resulting in greater customer 
service and increased capabilities; providing state-of-the-art 
information operations support to accomplish mission execution; and 
creating robust human capital strategic planning; establishing 
effective recruiting, retention, and rewards programs; and facilitating 
dynamic career development. Recent accomplishments include the first 
successful Agency-wide transition to the National Security Personnel 
System; implementation of the Defense Travel System which has resulted 
in employee reimbursement of travel costs in as little as 3 days; and 
electronic transaction of invoices between vendors, DTRA, and the 
Defense Finance and Accounting Service. Through these accomplishments, 
DTRA has improved business practices enabling realignment of existing 
resources to support core mission activities, enhanced responsiveness 
to external seniors, partners, and customers, and improved management 
visibility and control of agency resources.
Campaign X - Defeat the Threat of Loose Nuclear Weapons
    This campaign specifically responds to the challenge posed by 
potential WMD nuclear terrorism as outlined in the National Security 
Strategy and the National Strategy to Combat Terrorism. Key elements of 
this campaign include partnerships with intelligence agencies to 
advance warfighters' WMD knowledge base; detection of nuclear weapons 
and fissile material at stand-off ranges; establishment of a post-
detonation technical forensics capability that more quickly 
characterizes fissionable materials; and providing decision makers with 
a spectrum of elimination options that will secure loose nuclear 
weapons while eliminating potential consequences. DTRA also performs 
the DOD mission of providing radiological sampling and analysis 
capability in support of post-nuclear detonation attribution and 
forensics as part of the National Technical Nuclear Forensics (NTNF) 
program. In 2007, DTRA developed forensics tactics, techniques, and 
procedures and tested these in four exercises; procured, tested, and 
evaluated equipment; and deepened our relationship with our partners 
across DOD, and the Departments of Justice (DOJ), DHS, DOS, and Energy 
(DOE). We continue to refine NTNF post-detonation TTP and equipment to 
improve operational capability, and will participate in an end-to-end 
exercise involving all NTNF partner agencies in October 2008.

    I will use Campaign X as the context for highlighting some of our 
most important advanced CWMD technology development programs. I will 
review the DTRA role in defeating loose nuclear weapons, address the 
operational and technical challenges, and describe the broad spectrum 
approach being taken by DTRA to address this challenge.
    DOE provides radiation detection equipment at fixed locations 
overseas and DHS has the responsibility for radiation detection at 
points of entry into the United States. As such, DHS is the lead for 
the ``home game.'' DOD has responsibility for locating and defeating 
nuclear weapons in terrorist hands overseas and, therefore, is 
responsible for the ``away game.''
    DOD must perform this responsibility in a very stressing 
environment with unique requirements. For example, while DHS can field 
large detectors supported by an existing infrastructure where size, 
weight, and portability are not significant design considerations, DOD 
may be called upon to look for a terrorist nuclear device anywhere in 
the world, in environments such as deserts, mountains, and jungle. This 
means that the detectors and other equipment that we need must be 
highly portable, self-sustaining light-weight, reliable and accurate, 
and capable of being rapidly deployed with a minimal supporting 
``footprint.'' Whereas DHS attempts to defeat the threat at 
chokepoints, DOD has to search large geographical areas to locate and 
then defeat the threat. Therefore, DOD is far more interested in long-
range surveillance, search, and localization, which makes active rather 
than passive detection much more attractive. Furthermore, if operating 
in sparsely populated areas, health and safety requirements associated 
with active detection may be of lesser concern than inside the United 
States.
    While DOD has unique requirements and needs, it is fully integrated 
into the global nuclear defense architecture of the Domestic Nuclear 
Defense Organization (DNDO) and we are fully partnered with DNDO and 
DOE in developing detection technology. The urgency is great and the 
resources are too limited to permit anything other than a fully 
integrated national nuclear defense capability that provides protection 
in depth from overseas to the homeland.
    We see significant operational and technical challenges in 
defeating the threat posed by loose nuclear weapons. With regard to 
intelligence, we need to enable greater transparency and cooperation 
among the players. From the perspectives of detection prior to attack 
and forensics after attack, materials cannot now be easily detected and 
characterized. If we are unable to physically gain control of the 
weapon, our stand-off options for eliminating or neutralizing it while 
still in terrorist hands are quite limited and must minimize collateral 
damage.
    Campaign X integrates technical and operational approaches to 
defeating loose nuclear weapons with the goal of fielding ``game 
changing'' capabilities that reduce operational constraints, reduce 
equipment and personnel requirements, meet detection coverage area, 
increase the probability of detection, and permit more rapid search 
over a much larger area.
    To provide the warfighters an unprecedented level of information 
regarding loose nuclear weapons, DTRA is partnering with the IC to 
provide enhanced synergy, collaboration, and fusion capabilities; 
develop a persistent intelligence, surveillance, and reconnaissance 
capability for WMD production, storage, and processing facilities; and 
develop associated battle management concepts.
    Our key objective for detection is to provide the capability for 
locating and tracking nuclear weapons or nuclear materials at stand-off 
distances. We are emphasizing active detection technology and 
techniques as the critical enabler. Until we can field active 
detectors, we are working hard to improve our existing passive 
detection capabilities.
    With regard to elimination, we are investing in nondestructive 
alternatives and nuclear shut-down devices, as well as improved 
targeting options for our existing weapons.
    Should a terrorist nuclear device be exploded in the U.S., we must 
do all we can to prevent follow-on nuclear attacks. DTRA has 
responsibility for gathering the samples needed for post-detonation 
forensics so that, with additional information, the national leadership 
can confidently undertake appropriate responses in a timely manner. In 
addition, post-detonation forensics could provide important clues that 
will help us in our efforts to head-off follow-on attacks. Therefore, 
we are placing a high priority on developing an accurate, rapid, and 
reliable capability to characterize post-detonation materials and 
prompt data resulting from nuclear and radiological attacks. 
Specifically, we are looking at improved personnel protection equipment 
for manual collections, as well as prompt sample collection and 
evaluation.
    In addition, we are developing and will be exercising a national 
strategy for loose nuclear weapon scenarios. Our goal is to provide 
tactics, techniques, and plans supporting national scenarios and 
capabilities. We are partnering with the warfighters to get additional 
capabilities integrated into their CWMD plans. In addition, we are 
integrating DOD CWMD capabilities with other U.S. agencies to develop 
comprehensive action plans for a variety of scenarios.
                             dtra tomorrow
    As we look toward the future, we face several challenges. First, 
all the forecasts we have suggest that the future for CWMD will be more 
complex, not less. Second, national CWMD expertise is limited and must 
be nurtured and revitalized. Third, resources are finite and stretched 
thin, not only in DTRA, but among our partners as well. Lastly, our 
relationships with our partners must continue to deepen.
    I am confident that our campaigns will be influential in guiding us 
through these challenges. Our campaigns have already done much to 
identify capability gaps, provide meaningful ways of assessing our 
progress in filling those gaps, and maximizing the full potential of 
the agency and focusing it on achieving enhanced CWMD capabilities.
    DOD strategic planning guidance and our campaigns have identified 
several areas requiring increased emphasis in the coming years. These 
include:
Weapons Effects
    Since the end of the Cold War, there has been a well-documented 
reduction in the U.S nuclear weapon effects enterprise including 
expertise, testing, test facilities, basic nuclear physics knowledge, 
research and development, modeling and simulation (M&S), and military 
training for operations in nuclear environments. DTRA programs in these 
areas similarly have been scaled-back. At the same time, the range of 
nuclear threat environments and scenarios continues to grow in number 
and diversity. DTRA believes that it must transform the way we support 
CWMD by developing deeper understanding of the phenomenology and 
effects underlying the WMD threat using advance High Performance 
Computing (HPC)-based M&S tools, and providing decision support and 
courses of action options for our customers. We are looking at three 
related focus areas: knowledge development using HPC-based M&S and 
validation testing; tools, technologies, and expertise to enable the 
survivability of DOD systems in a nuclear environment; and a 
comprehensive suite of analytic tools to support warfighter mission 
planning and operations in a nuclear environment.
Nuclear Forensics
    We believe that improved capabilities are needed for prompt nuclear 
effects data collection and analysis, debris sample collection and 
field screening measurements, debris analysis to develop novel 
approaches and new technologies for more rapid and precise isotopic 
measurements, and data evaluation and knowledge management.
Enhanced Combat Support Operations
    Combat support operations have become more than simply supporting 
just the COCOMs. Due to the nature of the war on terrorism and the CWMD 
mission, combat support now requires an interagency approach. In 
addition, DOD's Security Cooperation Guidance makes daily operations in 
security cooperation activities a vital element of our Nation's 
security. Such CWMD-related activities, in concert with those made by 
our allies and friends, help shape the regional security in a manner 
consistent with our national security objectives. As both a Combat 
Support Agency and as the DOD CWMD Agency, DTRA has a unique viewpoint 
and expertise that could assist with the development of a comprehensive 
organizational approach for expanding combat support operations, 
developing regional counterproliferation strategies, expanding the CTR 
Program beyond the Former Soviet Union, and enhancing homeland 
security.
Collaboration with the Intelligence Community
    How can we more effectively support that community in WMD threat 
anticipation? What more can we do to assist with the identification of 
proliferation pathways and opportunities for interdicting WMD and 
related materials and means of delivery?
Hard and Deeply Buried Target Defeat
    While we have worked hard at developing new non-nuclear means, such 
as thermobaric warheads and the MOP, for defeating such targets, we 
have learned from recent combat assessments in the field that we have 
not progressed as much as we had initially believed. In fact, in this 
contest, the defense is prevailing and our offensive capabilities are 
at risk of falling farther behind. DTRA believes that we can find newer 
and innovative non-nuclear ways of holding such targets at risk. Part 
of the solution might be through the development of novel weapons based 
on advanced energetic principles. We also need to significantly improve 
supporting M&S capabilities.
    Additional considerations are also influencing our strategic 
thinking and planning. For example, do we have the right focus on and 
presence in Asia and the Pacific? What will be the combat support 
requirements for the new U.S. African Command? How might future arms 
control treaties and other such arrangements be different from those of 
our historical experience? In what ways will CTR Program Expansion 
beyond the Former Soviet Union evolve? How can we provide expanded 
assistance for Homeland Defense? How can we develop and retain the next 
generation CWMD workforce? These are difficult questions, but ones that 
we must squarely address.
                               conclusion
    Mr. Chairman and members of the subcommittee, what has taken place 
over the past decade regarding the CWMD mission has been significant. 
We now have a strategy in place, specific mission direction and 
guidance, a network of expanding partnerships, focused research and 
operational support, and a sound investment strategy--all underpinned 
by the expertise and dedication of our workforce. DTRA and its partners 
are steadily increasing the Nation's CWMD capabilities.
    We still face challenges. Foremost among them is that the threat 
posed by WMD is growing. Second, no single department or organization 
has an encompassing solution to the problem. Successfully meeting this 
threat requires the full integration and synchronization of national 
and international capabilities. This is particularly important since 
resources and expertise are limited.
    DTRA's fiscal year 2009 budget request represents a balanced 
program across all of the agency's mission responsibilities to meet the 
challenges facing us. It also represents a balance in satisfying near-
term combating WMD requirements at a high level of performance within 
available resources, while identifying and developing capabilities to 
meet future challenges. I also request your support of the STRATCOM 
mission to combat WMD. Our strategic vision is to make the world safer 
from WMD. Our budget and programs are designed with that in mind.
    DTRA greatly appreciates the strong support that Congress has 
steadily provided over the past decade. We hope that you will join us 
in celebrating our 10 years of progress by participating in symposia 
and other events that we will host during our 10th anniversary year 
celebration. I look forward to working with you in further reducing the 
WMD threats facing our Nation.

    Senator Reed. Thank you very much, Doctor.
    General Reeves? Again, you can summarize, but don't feel 
constrained by the clock.

STATEMENT OF MG STEPHEN V. REEVES, USA, JOINT PROGRAM EXECUTIVE 
  OFFICER FOR CHEMICAL AND BIOLOGICAL DEFENSE, DEPARTMENT OF 
                            DEFENSE

    General Reeves. Thank you, Mr. Chairman. I am honored to 
testify today on behalf of the DOD chemical/biological defense 
program, the United States Army as the program's executive 
agent, and as the JPEO/CBD.
    As requested, I will summarize my remarks. On a daily 
basis, we are asked to do three things in this program. First 
is support for the force in current operations. Second is to 
improve our fielded capability. The third thing is to build for 
the future.
    It is the rapid pace that Dr. Tegnelia referred to of 
chemical and biological technology development and, 
unfortunately, its proliferation in the information age and the 
globalization of that technology and expertise that tends to 
broaden our threat context today. This is going to make 
uncertainty the defining characteristic of the present and 
future environment. So we now have to prepare our forces for a 
much broader array of threats, including toxic industrial 
chemicals and materials, while also preparing for future 
threats.
    To counter that existing threat, in the past year, we have 
fielded over 1.2 million individual items of equipment, and you 
saw some of the examples of that equipment today in this room. 
In coordination with the Department of Health and Human 
Services (HHS), we have provided anthrax and smallpox vaccines 
to both our warfighters as well as to the U.S. Strategic 
National Stockpile.
    We have also strengthened our partnerships over the last 5 
years with Federal, State, and local agencies to ensure our 
military installations are prepared to mutually support and 
interoperate in the civilian communities in which they reside. 
We fielded critical incident response and protection 
capabilities in support of the National Guard as well as the 
U.S. Army Reserve.
    As we look to the future, our goal is to ensure that we are 
never technologically surprised. Again, as Dr. Tegnelia alluded 
to, it is the emerging sciences of genomics and proteomics, and 
the tools of genetic engineering that are not only creating 
great opportunities for us, but also the potential for our 
adversaries to develop new and previously unknown toxins, 
viruses, and bacterias.
    So we are working with nano biological information and 
cognitive technologies to develop a broad spectrum capability 
needed to counter these uncertain advanced threats. For 
example, we are leveraging information in biotechnology 
developments that are enabling us to develop capabilities for 
rapid identification and the genetic sequencing of unknown 
threats and the creation of a broad spectrum therapeutic 
countermeasure that we refer to as the Transformation Medical 
Technology Initiative.
    We also have multiple interagency and international 
partners. For example, in the physical sciences, we work 
collaboratively with DARPA and the DHS. In pharmaceutical 
development, we work very closely with the HHS.
    Even with this progress, challenges remain. Stand-off 
identification of chemical and biological agents, developing 
detection protection and decontaminant capabilities for all 
hazards, common test and performance standards across our 
agencies and our operations, and toxic industrial chemicals and 
the unique atmospheric conditions in an urban environment for 
chemical, biological, and radiological protection.
    Mr. Chairman, Mrs. Dole, I do want to thank you for 
allowing me to testify today. Your continued support to the 
chem/bio defense program is crucial for our military and for 
our Nation to succeed in defeating WMD. We fully recognize that 
even the smallest use of these weapons can create an 
environment of instability, doubt, and fear among our allies 
and citizens at home, and we believe we are fielding equipment 
and pharmaceuticals for our Armed Forces and deploying 
interoperable systems at our installations worldwide to address 
this threat.
    We are in the process of developing broad spectrum 
technologies to counter the evolving threat, and we are working 
closely with our interagency partners to defend the Homeland. 
With your guidance and assistance, we believe together we are 
bringing future technologies forward to protect our military 
and the Nation against chemical, biological, radiological, and 
nuclear threats.
    Thank you very much.
    [The prepared statement of General Reeves follows:]
            Prepared Statement by MG Stephen V. Reeves, USA
                            1. introduction
    Mr. Chairman and distinguished members of the subcommittee, I am 
honored to testify on behalf of the Department of Defense (DOD) 
Chemical and Biological Defense Program (CBDP), the U.S. Army as the 
Program's Executive Agent, and as the Joint Program Executive Officer 
for Chemical and Biological Defense (JPEO CBD) regarding technologies 
to combat Weapons of Mass Destruction (WMD).
    As stated in the 2008 Army Posture Statement, persistent conflict 
and change characterize our strategic environment. We will confront 
highly adaptive and intelligent adversaries who exploit technology, 
information and cultural differences to threaten the interests of the 
United States. While advances in technology are benefiting people all 
over the world, extremists are exploiting that same technology to 
manipulate perceptions, export terror and recruit the people who feel 
disenfranchised or threatened by its effects. The diffusion and 
increasing availability of technology increases the potential of 
catastrophic nuclear, biological and chemical attacks. Many terrorist 
groups and organizations are assessed to be actively seeking WMD.
    Today I will address how we in the CBDP do three things to minimize 
the impact of nuclear, biological and chemical attacks; we support the 
Force and ongoing operations, we field improved capabilities and we 
build for the future. My testimony today will touch on all three of 
these missions from the perspective of the challenges posed by the 
evolving WMD threat. Additionally, I will discuss how we are 
collaborating with others to harness the technologies necessary to 
generate capabilities for mitigating that threat. First, however, I 
will briefly describe the CBDP.
Public Law 103-160 Establishes the CBDP
    Enacted by Congress in 1994, Public Law 103-160 designated the 
Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs as the focal point for oversight of the 
CBDP, and it designated the U.S. Army as the DOD Executive Agent for 
certain key aspects of the CBDP. It also consolidated all chemical and 
biological warfare defense training activities of the DOD at the U.S. 
Army Chemical, Biological, Radiological, and Nuclear School.
    The Assistant to the Secretary of Defense for Nuclear and Chemical 
and Biological Defense Programs is responsible for overall coordination 
and integration of the CBDP and exercises oversight through a Defense 
Acquisition Board process.
    The U.S. Army, as the CBDP Executive Agent for the DOD coordinates 
and integrates research, development, test and evaluation, and 
acquisition requirements of the military departments for chemical and 
biological warfare defense programs.
The CBDP and the National Military Strategies
    Today our Armed Forces execute a wide range of missions from 
traditional combat to homeland defense, civil support, installation 
protection and consequence management to special operations, 
counterterrorism, security and police actions. Our CBDP strategic 
context incorporates the guidance from multiple national and military 
strategies. Our CBDP strategic context reflects the potential for 
layered missions and tasks, operations in and from forward areas, and 
maintenance of capabilities and forces to wage multiple campaigns in a 
given timeframe.
    The National Strategy to Combat WMD established the three pillars 
of our national strategy. The pillars; nonproliferation, 
counterproliferation, and consequence management, and their four 
crosscutting enabling functions form the foundation of a seamless 
layered defense. The 2006 National Military Strategy to Combat WMD 
supports the national strategy and provides to the Services, combatant 
commands, and military planners a strategic framework for combating 
WMD. In accordance with this strategy DOD seeks to ``dissuade, deter, 
and defeat those who seek to harm the United States, its allies, and 
partners through WMD use or threat of use and, if attacked to mitigate 
the effects and restore deterrence.''
    Based on this strategic framework, DOD developed a force planning 
construct. The CBDP utilizes the DOD force planning construct as the 
foundation for identification and analysis of required capabilities to 
ensure that operations are unconstrained by chemical, biological, 
radiological, and nuclear effects. This vision brings together 
doctrine, organization, training, materiel leadership and education, 
personnel, facilities and technology in a manner as to eliminate the 
burden currently imposed upon our warfighters by chemical, biological, 
radiological, and nuclear defense equipment.
    The CBDP uses the ``operational attributes'' or capability areas of 
sense, shield, sustain, and shape as core capabilities in which to 
categorize chemical, biological, radiological, and nuclear technologies 
and capabilities. The CBDP provides technologies and capabilities to 
sense chemical, biological, radiological and nuclear hazards, shield 
(protect) the force from these hazards, sustain the personnel and 
equipment while restoring combat power and recovering from the effects 
of the hazards, sense the presence of hazards and shape the chemical, 
biological, radiological and nuclear environment by enabling the joint 
force commander to understand the current and predicted chemical, 
biological, radiological, and nuclear situation. These technologies can 
often be directly used or adapted to provide the commanders with the 
capabilities required to support various aspects of the five 
counterproliferation missions which include; passive defense, offensive 
operations, elimination operations, interdiction operations, and active 
defense. The use of these sense, shape, shield, and sustain core 
capability areas support the active, layered, defense-in-depth that has 
been established to dissuade, deter, and defeat those who seek to harm 
the United States, its allies, and partners through WMD use or threat 
of use.
    The CBDP is a critical component of the DOD efforts to support 
national and military strategies in combating WMD. During the rest of 
my statement, I will focus on how the CBDP is providing the best 
chemical and biological defense capabilities in support of these 
strategies.
                        2. the new theory of war
The rapid pace of chemical and biological technology development and 
        proliferation through the information age, as well as 
        globalization of technology and expertise has broadened the 
        threat context
    These facts make uncertainty the defining characteristic of the 
present and future environment. Where once the capabilities of our 
adversaries were generally well understood and their intentions 
unclear, we now face quite the reverse situation. The intentions of our 
adversaries are clear while their capabilities are more varied and 
expanding. Jihadist websites and public statements frequently refer to 
``decisive strategic operations with Weapons of Mass Destruction.'' The 
July 2007 National Intelligence Estimate on ``The Terrorist Threat to 
the U.S. Homeland'' concludes that ``Al Qaeda will continue to try to 
acquire and employ Chemical, Biological, Radiological and Nuclear 
material in attacks'' This view was again reinforced by the Director of 
National Intelligence as recently as February 5, 2008.
    We must now prepare our armed forces for a much broader array of 
current threats, including toxic industrial chemicals and materials, 
while also preparing for future threats.
    For example terrorists may soon be able to cause mass casualties, 
or create significant socio-economic impacts, that in the past were 
only possible for state-run biological weapons programs. Scientists can 
already engineer biological agents to enhance their lethality either 
through genetic engineering or other types of manipulations. Given the 
exponential growth in the field of biotechnology and global access to 
scientific information on the Internet, our vulnerability to this 
threat may be closer than we suspect.
    Toxic industrial chemicals are present everywhere in the 
industrialized world and their availability and toxicity make a potent 
combination for use both in areas of conflict abroad and by terrorists 
at home. The ongoing efforts of nation-states, terrorists and even 
individuals to develop and/or acquire these dangerous agents, weapons 
and delivery systems constitute major threats to the safety of our 
Nation, our deployed troops, and our allies around the world.
    Nation-states pose an additional biological weapons threat, and the 
weapons they can produce are potentially more sophisticated, and 
therefore more lethal, than those made by terrorists. While fear of 
retribution may deter nations from using biological weapons against the 
U.S., their covert use may be a different matter. States could attack 
the United States or its military installations and avoid retaliation 
by posing as terrorists.
    The threat from the potential use of biological agents is expected 
to increase over the next decade as those countries now believed to 
have biological warfare programs, as well as additional states, 
terrorist groups and even individuals seek advanced capabilities. There 
is an increasing availability of biological warfare-related technology, 
materials, information and expertise, and publicity about potential 
vulnerabilities. Genetic engineering is just one of a growing number of 
biotechnologies that could allow countries to develop agents, such as 
modified viruses, that could make detection and diagnosis difficult and 
may defeat current protection and treatment protocols. Because of the 
dual-use nature of the materials needed to produce biological warfare 
agents, any country with the political will and a competent scientific 
base could probably produce agents.
    The chemical threat is no less real, as demonstrated by the 
terrorists that used the traditional chemical warfare agent Sarin in 
the Tokyo subway system and in Matsumoto 13 years ago. This threat is 
likely to also grow in the coming years for several reasons. The 
increased availability of chemical technologies, coupled with the 
relative ease of producing some chemical agents, as well as the 
potential emergence of advanced/future agents has increased concern 
that production and use may become more attractive to states or 
terrorist groups in the future.
New adversaries drive new relationships between threats abroad and at 
        home and a new concept of security for the American citizen
    Terrorism threats to the Homeland, to our deployed troops, to our 
national security interests, and to our allies are the pre-eminent 
challenge we face today. While the use of conventional explosives is 
currently the most likely attack scenario, al Qaeda and other terrorist 
groups are attempting to acquire chemical, biological, radiological, 
and nuclear weapons and materials, and have already demonstrated a 
willingness to use them. Indeed, today we are more likely to see an 
attack from terrorists using chemical, biological, radiological 
materials than from nation-states, as the Intelligence Community 
indicates that nearly 40 terrorist organizations, insurgencies, or 
cults have used, possessed, or expressed an interest in WMD.
    Of the potential terrorist WMD threats facing the United States, 
those related to biological substances have evolved the most rapidly 
during the past 20 years. Unlike nuclear or chemical weapons, a 
biological weapon has already been used to attack the United States, in 
the form of the anthrax letter attacks in 2001. This still unsolved 
criminal attack killed five people, crippled mail delivery in several 
cities, and required decontamination efforts costing more than $1 
billion.
    The deliberate use of toxic industrial chemicals against people, 
territory, or property of the U.S. could produce severe consequences. 
Beginning in January 2007, insurgents in Iraq began the use of chlorine 
cylinders in improvised explosive devices. While to date these types of 
attacks have killed fewer people than conventional suicide bombs, it 
marked a new phase in the insurgency and has increased concerns that 
non-state actors will use toxic industrial chemicals or conventional 
chemical weapons in other countries. The risks to the United States by 
terrorist use of toxic industrial chemicals and/or chemical agents are 
very real with significant potential to affect public health, critical 
infrastructure, the environment, and the economy.
    In conclusion, over the past two decades, the global WMD threat has 
grown significantly more complex and diverse. It has broadened from a 
focus on State threats to one that includes both state and non-state 
actors. Additionally, the WMD threat is not limited to a specific 
region or type of conflict. The threat, as well as our enemies, is 
evolving and therefore our strategy must be flexible and proactive.
            3. delivering capabilities now and in the future
Supporting the Force: fielding and logistics support
    We rapidly fielded many new capabilities and additional increments 
of existing capabilities in support of Operation Iraqi Freedom. These 
capabilities include toxic industrial chemical detectors, protective 
equipment, and decontamination capability; reconnaissance vehicles with 
enhanced toxic industrial chemical detection capability, armor and 
weapons, and; mobile vehicle inspection systems. We continue to provide 
in theater daily support for those systems both through resident 
Contractor Logistics Support contact teams and our JPEO CBD Chemical, 
Biological, Radiological and Nuclear Information Resource Center which 
operates on a 24/7 basis and serves as a single entry point for all 
requests for information related to the CBDP. This hot line can be 
accessed on line or via telephone by Service personnel throughout the 
world.
    To counter the existing threat we field equipment and 
pharmaceuticals to support our Forces and current operation. In fiscal 
year 2007, we fielded equipment and pharmaceuticals in 48 States, 19 
countries, and 3 continents. This included nearly 7,000 chemical 
detectors, over 200 biological detectors, over 2,000 radiation 
detectors, over 8,000 specialized protective suits and over 50 warning 
and reporting software systems. In coordination with the Department of 
Health and Human Services (HHS), we have provided over 2 million doses 
of Anthrax vaccine and annually provide over 500,000 doses of Small Pox 
vaccine. With delivery of this equipment, previously fielded equipment, 
and the associated training and doctrine, the U.S. military can better 
operate and succeed in the face of WMD on the battlefield. The CBDP 
invests approximately $1 billion a year to field capability and to 
develop advanced technologies that will allow us to keep pace with the 
threat.
Improving Capabilities: our Research and Development
    As we stated earlier, the functional construct the CBDP uses to 
combat chemical and biological agents is termed sense, shape, shield, 
and sustain. Within those functions are specific capabilities and 
technologies such as detection, protection, information systems, and 
medical systems. We also field integrated systems such as the 
installation protection program and the National Guard Civil Support 
teams. I will next discuss highlights of the various technologies being 
developed and an assessment of where technology development is 
proceeding in each.
    Sense Capability
    The primary roles of sense capabilities are to provide chemical and 
biological detection and facilitate warning of a chemical and 
biological event so forces can assume a protective posture and avoid 
exposure. This is accomplished by deploying multiple point sensors 
upwind of forces and several stand-off sensors to scan wide areas not 
monitored by the point sensors. The early warning of potential hazards 
is critical to mission success. Without it, forces would be unlikely to 
react rapidly enough to avoid exposure. Chemical and biological 
detection is also used in restoring operations, consequence management 
and medical diagnostics.
    Our current detector to address this threat is the automated 
chemical agent detector. Next year we will transition to the joint 
chemical agent detector which will provide improved detection 
capability at half the cost, a tenth of the weight and about one 
quarter the size of the automated chemical agent detector. This will 
allow chemical early warning detection capability to be fielded to more 
troops and integrated onto more platforms improving situational 
awareness throughout the DOD. Next year we will also field the joint 
service lightweight stand-off chemical agent detector as a sensor on 
the Stryker Nuclear, Biological, and Chemical reconnaissance vehicle. 
The joint service lightweight stand-off chemical agent detector is the 
first on-the-move, automated, passive infrared detector.
    We have over 100 joint biological point detection systems in our 
inventory. The joint biological point detection system is the first 
automated system to routinely monitor the air for biological agents and 
provide presumptive identification for up to 10 agents via immuno-assay 
tickets. Next year we will field the joint biological stand-off 
detection systems, the first biological stand-off detector of its kind 
in the world. This detector uses a light detection and ranging system 
at two specific wavelengths to detect and classify airborne aerosols.
    In response to the expanding number of biological threats, the push 
for detection technology to keep pace has led to the development of 
multiplex biological assays, the use of high-speed, high-throughput 
nucleic acid sequencing, linked with bio-informatics, and integration 
of multiple technologies in a micro-electro-mechanical systems 
platform. The multiplexed biological assays can provide presumptive 
identification for 10 plus agents per assay and is being considered for 
the next upgrade into the joint biological point detection systems to 
expand the number of detectable biological agents. Nucleic acid 
sequencing linked with bio-informatics will have the capability to 
assess the potential of an unknown organism to be a threat. This 
capability will be the foundation for next generation of biological 
detection system with the capability to address emerging and unknown 
biological threats. Micro-electro-mechanical systems technology has the 
potential to significantly reduce the size and cost of detection 
devices across the technological spectrum, and will provide us an 
enhanced capability to integrate different technologies into a single 
detector or platform.
    As the CBDP develops new chemical and biological detectors, and as 
the nature of the threat and potential means of attack become harder to 
predict, it is necessary to integrate the most advanced capability into 
as many platforms and installations as possible. To that end, we have 
developed the common chemical, biological, radiological, and nuclear 
sensor interface standards. These standards define the architecture, 
common component interconnects, power, connector, and communications 
protocol standards and specifications that provide a plug-n-play 
capability for sensors and detectors through net-centric operations. 
The standards facilitate interoperability with command and control 
networks by providing a standard set of extensible commands and reports 
for interaction with sensors. They provide timelier sensor and detector 
information, improved sensor platform independence, improved sensor 
portability, and simplified integration of new sensors. The standards 
and specifications language will be used for all future sensor 
procurements. The standards are modular to support tailoring by 
acquisition programs to incorporate the capabilities they need.
    Additional sense capabilities that are scheduled for delivery to 
the field are the joint biological tactical detection system (fiscal 
year 2011). This is a lightweight system that will enhance force 
protection and medical response decision. The system will detect the 
presence, provide warning and a presumptive identification, and collect 
samples of a biological threat agent.
    Detection technologies developed and fielded by the CBDP are 
primarily used in the passive defense and consequence management 
mission areas of the counterproliferation pillar of the national 
strategy to combat WMD. However the core technologies can be adapted or 
re-engineered for other missions. For example, the immuno-assay tickets 
used in the joint biological point detection system are the same root 
technology that the National Guard Civil Support Teams use when 
presumptively identifying unknown substances such as anonymous ``white 
powder'' incidents for homeland defense. The joint chemical agent 
detector chemical detectors used by deployed troops for passive defense 
can be used by sailors performing an interdiction operation at sea 
searching for chemical weapons, or ground forces securing suspect 
chemical facilities.
    Shield Capabilities
    Shield capabilities provide protection to the force from chemical, 
biological, radiological, and nuclear hazards by preventing or reducing 
individual and collective (group) exposure. Shield capabilities are 
aligned within two areas, individual and collective protection. While 
shield capabilities also include those chemical and biological medical 
systems technologies that provide approved pretreatments (prophylaxis) 
for the warfighter we will speak to all medical systems within the 
``sustain'' capability area.
    This year we will begin fielding to all of the Services the joint 
service general purpose mask. This mask provides enhanced protection 
capabilities and reduced breathing resistance. We have also begun 
fielding enhanced boots, gloves, and a mask leakage detector to our 
forces as part of our strategy to incrementally enhance individual 
protection capabilities. Additional shield systems that are scheduled 
for future delivery to the field include both fixed wing and rotary 
wing variants of the joint service aircrew mask.
    The unpredictable nature of the evolving threat drives our vision 
toward embedding a level of chemical, biological and radiological 
protection into our forces' standard combat uniform or tent materials 
without degrading their ability to operate. At the same time, we must 
provide protection against a wider range of threats tailored to 
specific user communities which optimize human performance and reduce 
logistical impacts. Technological advances provide an opportunity to 
revolutionize our future approach to individual and collective 
protective equipment by providing a modular family of systems. These 
technological advances are coming from both industry and government 
research and development efforts. Technological solutions, such as 
imbedded reactive materials and nanofibers, are ready now for further 
refinement and development into a joint combat ensemble (family of 
systems) that optimizes and enhances protection while meeting the 
diverse needs of the ground, mounted, air, and special operating 
forces.
    A number of new technologies offer considerable opportunities for 
achieving integrated low-burden protection against a broadening threat 
spectrum without compromising needed performance. One of the most 
exciting areas is reticular chemistry, which is described as ``the 
linking of molecular building blocks of synthetic and biological origin 
into a predetermined structure using strong bonds.'' The most well 
known class of these materials is metal organic frameworks which have 
already exhibited absorbency potentials that far exceed activated 
carbon, and are currently being manufactured in commercial quantities. 
These compounds can be tailored to target specific classes of chemicals 
that include the high volatility toxic industrial chemicals which limit 
the performance of current technologies. Such compounds can be used to 
design smaller and lower-profile filters for protective masks and 
collective protection systems that protect against the expanding 
spectrum of threats. Smaller and lower profile filters decrease weight 
and reduce interference of the respirator or protective shelter filter 
systems with other mission systems. Another promising area has been the 
development of nanofibers. It may soon be possible to produce 
particulate filters for protective masks with order-of-magnitude lower 
pressure drop, and high efficiency particulate filtration capabilities 
that can be built into the clothing. Additional developing technologies 
will make it possible to assemble these fibers into nano-composites 
that will enable built-in adsorption, reactive, anti-microbial and 
sensing capabilities into a thin coating. This could revolutionize 
protective clothing and collective protection and produce 
unconventional and extremely low burden approaches to respiratory 
protection.
    Shape Capabilities
    Shape capabilities enhance the commander's situational awareness on 
the battlefield. These capabilities are the heart of the layered, 
integrated, chemical, biological, radiological, and nuclear defense 
model. There are three capabilities that are being developed and 
fielded; a warning and reporting capability, a hazard prediction model, 
and an operational effects model.
    We have fielded approximately 50 Block 1 versions of the joint 
warning and reporting network software that enable warfighters to 
seamlessly integrate chemical, biological, radiological, and nuclear 
sensor data into a common command node. We are in the development phase 
of the next joint warning and reporting network increment that will 
integrate into more Service command and control systems, provide 
additional networking capability, and interface with additional 
chemical, biological, radiological, and nuclear sensors.
    Near the end of this fiscal year, we will field the joint effects 
model. This model will provide warfighters with the DOD accredited 
modeling capability to predict high-fidelity, downwind hazard areas and 
effects associated with the release of chemical, biological, 
radiological, nuclear, and toxic industrial hazards into the 
environment. The model also incorporates the impacts of weather, 
terrain and material interactions into the downwind prediction and 
provides enhanced situational awareness of the battle space.
    Also in development is the joint operational effects federation 
that will enable warfighters and planners to estimate chemical, 
biological, radiological, nuclear, and toxic industrial material 
effects on personnel, equipment, and operations. The joint operational 
effects federation will enable the conduct of defensive planning to 
minimize or eliminate the threats and carry out effective consequence 
management in response to contamination when it occurs. The joint 
operational effects federation is expected to begin fielding in fiscal 
year 2009.
    We are leveraging the advances that we have made in developing 
these capabilities to perform consequence management. These activities 
include developing modeling and simulation software to assist planners 
in estimating the potential human casualty that might result from a 
chemical, biological, radiological, and nuclear attack. Our research 
has lead to the building of advanced software tools that allow the 
simulation of the hazard environments posed by WMD across a broad array 
of scenarios. These scenarios include both military operations and 
homeland defense scenarios that encompass high altitude missile 
intercepts, urban environments, building interiors, military 
installations, coastal and littoral, as well as a variety of military 
operational settings. We are also investing in the development of a 
sensor data fusion capability to allow the fusion of information and 
data from diverse detectors and sources to provide the warfighter with 
a more refined common operating picture of the battlespace with respect 
to chemical, biological, radiological, and nuclear weapons.
    Sustain Capabilities
    Sustain capabilities include decontamination capabilities and 
medical capabilities. Decontamination technologies remove and 
neutralize contamination and detoxify contaminated material without 
damaging combat equipment, personnel, or the environment. Chemical and 
biological medical capabilities include both prophylactics 
(pretreatments) and therapeutics (treatments).
    We have many challenges in this area; to include an ``all-hazards'' 
decontaminant that places a minimum logistic burden on the operational 
forces. Technology advances in neutralization technologies such as 
those found in the reactive skin decontamination lotion, which we will 
field this year under the joint service personnel/skin decontamination 
program, have resulted in a significant (up to 15,000 percent) 
improvement in our ability to provide a skin decontamination capability 
against future threat agents. We continue to look at technologies that 
provide coatings, catalysts, and other means to reduce the logistics 
burden, manpower requirements, and lost operational capability 
associated with decontamination operations. Our decontamination science 
and technology efforts are focused in five areas: 1) decontamination-
enabling sciences: 2) traditional approaches to decontamination: 3) 
energetic and kinetic decontamination: 4) smart system decontamination: 
and 5) self-detoxification processes.
    Developing and fielding new chemical and biological medical systems 
technologies provides Food and Drug Administration (FDA)-approved 
prophylaxis, therapeutics, and diagnostics. Chemical, biological, 
radiological, and nuclear medical systems include all pharmaceuticals, 
biologics, and devices that preserve combat effectiveness by timely 
identification, diagnosis, and providing medical countermeasures in 
response to joint service chemical, biological, radiological, and 
nuclear defense requirements. The program is developing safe, 
effective, and affordable medical countermeasures to ensure the 
effectiveness and survival of U.S. warfighters against validated 
military threats in a chemical and/or biological warfare environment by 
maintaining uncontested global supremacy in the development and 
delivery of chemical, biological, radiological, and nuclear medical 
countermeasures. Developing and acquiring new medical chemical and 
biological technologies and products entails using government and 
commercial best practices to obtain FDA-approval of chemical, 
biological, radiological, and nuclear medical countermeasures and 
diagnostics within benchmark timelines. These best practices have 
helped keep 80 percent of chemical and biological medical products 
(approved or in development) on track in terms of safety and 
effectiveness. This success rate is exemplary when compared to the 10-
20 percent of products that achieve FDA approval within the industry 
benchmark.
    Chemical, biological, radiological, and nuclear medical systems 
technology development is continuously advanced through focus on 
partnering with the science and technology base, international 
partners, and industry to reduce technical and cost risks, to ensure 
regulatory compliance, and to align transition opportunities with 
capability gaps. For example, the CBDP is working with the Defense 
Advanced Research Project Agency (DARPA) to shorten development time 
and decrease the costs of vaccine development. We are collaborating 
with HHS to form a joint national stockpile for fielded products and 
continued cooperation on numerous developmental products. A joint 
stockpile currently exists for the smallpox vaccine and one is being 
developed for the anthrax vaccine.
    One of our major initiatives in the area of chemical and biological 
medical therapeutics is the Transformation Medical Technology 
Initiative, which we will address in our ongoing CBDP initiatives to 
build for the future.
Improving Capabilities: Dual Use (Military and Civil) and Multi-Use 
        (across the spectrum of WMD operations) capabilities can 
        mitigate the new threat relationships and the new concept of 
        security
    Given a common threat to both the U.S. military and the Homeland, 
the same basic technologies provide useful increments of capability. 
The difference is a matter of engineering to ruggedize, ensure 
interoperability, and other environmental and mission attributes.
    However, this area poses significant challenges. Among them is the 
absence of many national standards for detection and other 
capabilities. There are dual standards (one for civil and one for 
military) for items such as protective equipment. In addition to the 
need to create synchronized standards of performance, another area that 
poses a challenge are the differences in test capabilities and 
methodologies that frequently exist between a national standard, such 
as those established by the National Institute for Occupational Safety 
and Health for respiratory protection, or those established by the 
National Fire Protection Association for percutaneous protection, and 
the existing military standards and test methodologies.
    Two of the ways DOD has worked to address this challenge is the 
nonstandard equipment review panel, a process we have set up to apply 
in cases where national standards do not exist, and our work with the 
Office of Federal Procurement Policy to establish a policy that 
facilitates DOD selling equipment and services developed for the DOD to 
State and local community first responders. In the case of national 
standards, in the long-term we are working through organizations such 
as the interagency board for equipment standardization and 
interoperability to ensure standards are created where they do not 
exist and are synchronized where they conflict. This board is designed 
to establish and coordinate local, State, and Federal standardization, 
interoperability, compatibility, and responder health and safety to 
prepare for and respond to any incident by identifying requirements for 
an all-hazards incident response capability.
    In a similar effort we are also working directly with the 
Department of Homeland Security (DHS) to develop integrated process and 
procedures for the Biowatch program, to include common reporting 
protocols and the integration of Biowatch collection and detection into 
our operational networks.
    As previously described, we are making progress in the development 
of dual use technologies in areas such as detection with our joint 
biological point detection system and the joint chemical agent detector 
systems.
    DOD has also procured and employed numerous commercial technologies 
to significantly augment operational military capabilities. These 
include chemical detection and identification, biological detection and 
identification, radiological, and nuclear detection systems, individual 
protection, decontamination and information management, and warning. We 
have ongoing efforts to address communications and interoperability. By 
leveraging open architecture design and web based communications 
systems we are improving the ability for military and civilian first 
responders to communicate and to interoperate.
Improving Capabilities: Military-Civil Integration can mitigate the new 
        threat relationships and the new concept of security
    A significant example of both the promise and challenges inherent 
in the integration of military and civil capabilities is the 
installation protection program. A key component of our support to the 
national security strategy of the United States in defeating WMD is 
ensuring that we can both protect and project our military forces. 
Furthermore, our homeland defense strategy calls for military support 
to civilian authorities. Both of these missions begin here at home. To 
accomplish this we must strengthen partnerships with Federal, State, 
and local agencies to ensure that our military installations are 
equipped to both protect the force and support surrounding civilian 
communities.
    To protect our installations from WMD, we have applied a tiered 
concept to ensure appropriate and scalable level of response capability 
at each of our military installations. All installations receive at 
least a baseline tier of protection, which consists of a set of 
training products, planning guidance, exercise scenarios, and templates 
for developing exercises and mutual aid agreements. We facilitate the 
installation's coordination, and support to with their civilian 
counterparts by providing them with the guidance necessary to improve 
communication and information sharing through memorandums of agreement. 
Such baseline resources are available to all military installations via 
the Installation Protection Program web-based portal.
    The next level of protection, known as Tier 1, includes government 
and commercial off-the-shelf emergency response equipment such as 
protective suits, pharmaceuticals and breathing apparatus for first 
responders, as well as portable detection equipment, decision support 
tools, and mass notification and warning capabilities in addition to 
all baseline tier capabilities. The final level of protection, Tier 2, 
builds on the baseline and Tier 1 capabilities, and includes an 
enhanced decision support system, fixed sensors for chemical, 
biological and radiological detection, and protection for mission 
critical facilities.
    Our approach for ensuring interoperability and military support to 
civilian authorities was developed from the 2006 Chemical, Biological, 
Radiological, Nuclear and High-yield Explosives Installation Protection 
Study sponsored by the Assistant to the Secretary of Defense for 
Nuclear, Chemical and Biological Defense Programs and the Joint 
Requirements Office. This study highlighted the complexities of a 
chemical, biological, radiological, and nuclear response, identified 
interoperability gaps, and reinforced the inherent co-dependency of 
installations and the civilian community on the assets and capabilities 
of both.
    To address the gaps identified within the study, we established the 
Installation Protection Steering Group. This group is charged with 
overseeing efforts to develop and/or clarify installation protection 
standards, transitioning DOD from a previously limited focus to an all-
hazards approach. This holistic approach is consistent with civilian 
emergency preparedness and management efforts and will provide for a 
more unified response to a wide range of natural and man-made threats.
    In addition, through our partnership with the DHS and the 
relationships we continue to foster with each of the Services, we have 
participated in efforts to leverage existing civilian capabilities such 
as those provided by the BioWatch Program and the Domestic Nuclear 
Detection Office.
    In 2007, we collaborated with BioWatch to collocate DOD and DHS 
bio-detection technologies on Andrews Air Force Base. This partnership 
resulted in several significant accomplishments:

        <bullet> Enhancing assay equivalency work currently underway 
        between the Centers for Disease Control and Prevention and DOD 
        laboratories;
        <bullet> Developing multi-agency (national and local) concepts 
        of operations for event notification--the genesis for 
        developing an expanded concepts of operations for the National 
        Capital Region; and
        <bullet> Relocating collectors within the National Capitol 
        Region that seeks to optimize DOD and DHS biomonitoring 
        capabilities--a strong first step in solidifying the national 
        biomonitoring architecture.
        <bullet> Using up to 25 DOD installations that have 
        biodetection capability that provides BioWatch additional 
        geographic coverage.

    In addition, we have developed, procured and fielded critical 
incident protection and response capabilities in support of the 
National Guard Bureau and the U.S. Army Reserve. We have developed and 
fielded the Unified Command Suite to every National Guard WMD Civil 
Support Team in the country.
    The analytical laboratory system provides enhanced sensitivity and 
selectivity in the detection and identification of chemical, biological 
and radiological agents or substances. The analytical laboratory system 
provides a science-based analysis of potentially hazard samples to gain 
and maintain a complete understanding of the contaminated environment. 
This is done to support informed decisions by a myriad of possible 
agencies over and above the typical incident commander or other 
official.
    The Unified Command Suite is a self-contained, stand-alone platform 
that provides voice and data communication capabilities to the Civil 
Support Team Commanders and other agencies. It is the primary means of 
reachback communications for the Analytical Laboratory System and the 
Civil Support Team's, and acts as a command and control hub to provide 
a common operational picture for planning and executing an incident 
response. In August 2005, we deployed 13 sets of these systems 
throughout Louisiana and Mississippi in support of Hurricane Katrina 
recovery and relief efforts and they were critical in establishing 
secure, reliable communications links for the recovery and relief 
efforts.
Building for the future: Broad spectrum capabilities developed through 
        Technology Mega Thrusts can mitigate the broadened threat 
        context
    As we look to the future, our goal is to ensure our forces are 
never technologically surprised. The rapid advances and convergence 
among the technology mega thrust areas of nano, bio, information, and 
cognitive technologies can assist us to develop the broad spectrum 
capabilities needed to counter the uncertain and advanced threat. Nano-
technology is allowing us to manipulate the fundamental properties of 
materials that can be used in protective clothing and masks and develop 
sensing elements that distinguish hazards across a broad range of 
chemicals. By its very nature, nano-technology will enable the 
embedding of this protection and sensing capability into not only 
soldiers' uniforms, but also across the range of military platforms. 
This integration and proliferation of capability will provide better 
overall force protection regardless of where troops are stationed.
    Advances in bio-technology are enabling the CBDP to do several 
things. First, rapid genetic sequencing is providing the information 
necessary to understand the means of pathogenicity. Combined with bio-
informatics, this genomic information will allow for the more rapid 
identification of unknown threats and development of therapeutics to 
counter these threats. Second, bio-technology combined with improved 
understanding of the human immune system enables the creation of broad 
spectrum therapeutic countermeasures. The Transformational Medical 
Technologies Initiative (TMTI) is our programmatic vehicle to harvest, 
develop and field these revolutionary capabilities.
    Information and cognitive science developments are enabling the 
creation, dissemination, manipulation, and effective use of chemical 
and biological information on the battlefield. With the rest of DOD, 
the CBDP is migrating to a net-centric operating environment. No longer 
will information remain isolated or stovepiped. Commanders at all 
echelons will have the information they need regarding the chemical and 
biological hazard and the necessary information systems tools to take 
the appropriate protective, evasive, and restorative actions necessary.
    As the sciences behind these technology mega thrusts converge, 
there will be technology developments that are broad-stroke in nature 
but more integrated into the capability needs of the operational 
forces. Genomic research will target convergence of biotechnologies for 
detection, diagnostics, and therapeutics. Likewise, developments in 
nanotechnology from various agencies will be leveraged for detection, 
protection, and hazard mitigation (decontamination) applications. As 
``intelligent'' materials and technologies emerge from these efforts, 
the processing of information from nano-scale elements will require a 
convergence of research in information management, systems, and 
cognition as they relate to human factors in the design of future 
countermeasures technologies and for training on the use of these 
technologies.
    Information and cognitive science developments are enabling the 
creation, dissemination, manipulation and effective use of information 
on the battlefield. The joint warning and reporting network, joint 
effects model and joint operational effects federation of models 
provide our commanders both situational awareness and analysis. With 
this information our forces are prepared to take the appropriate 
protective, evasive, and restorative actions necessary for mission 
success.
Building for the future: Setting the stage for rapid capability 
        development across our capability spectrum can mitigate the 
        rapid pace of threat development
    Rapid advances in biotechnology present not only great 
opportunities, but also threats. The emerging sciences of genomics and 
proteomics and the tools of genetic engineering create the potential 
for our adversaries to develop and use previously unknown viruses, 
bacteria and toxins.
    The TMTI is a system approach to defending against the 
conventional, emerging or genetically engineered biological threats. 
The approach is to use platform technologies, such as genetic 
sequencing, to accelerate the identification of the specific biological 
threat agent, development of broad-spectrum medical countermeasures, 
and the production of an effective countermeasure. Each countermeasure 
will act against the targeted agent by blocking critical molecular 
pathways essential to the success of the agent to affect the host.
    While efforts like the TMTI are vital to our effort to lay the 
ground work for effective and rapid medical treatment against 
biological threats, we are using experimentation to assist us in 
rapidly analyzing the promise of new technologies to provide us 
capability across the WMD spectrum.
    We use experimentation to examine how emerging technologies can be 
employed by soldiers, sailors, marines, and airmen to enhance their 
future chemical, biological, radiological, and nuclear defense 
capabilities. The joint combat developer for chemical, biological, 
radiological, and nuclear defense conducts joint limited objective 
experiments in order to exploit the technological opportunities that 
are identified by the Joint Science and Technology Office, Joint 
Requirements Office and the JPEO CBD. Experimentation helps to focus 
the developmental efforts of the acquisition program managers through a 
better understanding of the warfighter requirements which can 
ultimately translate into the acceleration of the acquisition process. 
A recent successful example of such an experiment was the joint 
chemical, biological, radiological, and nuclear dismountable 
reconnaissance system limited objective experiment which has enabled 
the acceleration of the second increment of the joint service nuclear, 
biological, and chemical reconnaissance system.
    Experimentation helps us to better understand the warfighters needs 
and to better define the capabilities that emerging technologies can 
provide. To map what capabilities are required against emerging threat 
agents the CBDP has formed a working group and a toxic industrial 
chemical and toxic industrial material task force. The working group is 
the focal point for the coordination, alignment, and synchronization of 
advanced/future chemical agent defense capability development for the 
CBDP. This group provides integration and management visibility of 
efforts and provides a framework and plan-of-action for the capability 
development of material solutions to mitigate the effects of advanced/
future chemical agents. The toxic industrial chemical and Toxic 
Industrial Material Task Force pulls together subject matter experts 
across the CBDP community to develop a standard and prioritized list of 
toxic industrial chemical agents for equipment and requirement 
development across the WMD defense capability spectrum.
    Our test and evaluation capability for future equipment must also 
evolve consistent with the evolving threat. We have established a 
product director for test equipment strategy and support that, working 
in concert with the CBDP Test and Evaluation Executive, is developing 
the capabilities we will require to ensure future equipment is safe, 
effective and suitable.
Building for the Future: A portfolio approach to the acquisition of 
        capabilities accelerates the exploitation of technological 
        opportunities and the generation of new capabilities
    Under the direction of the Under Secretary for Defense, 
Acquisition, Technology, and Logistics, the CBDP is working with 
Service and joint Major Defense Acquisition Programs (e.g. Joint Strike 
Fighter) to provide a portfolio approach exploiting technologies that 
deliver required chemical, biological, radiological, and nuclear 
capabilities. This will ensure the major defense acquisition programs 
can accomplish their primary missions unencumbered by chemical or 
biological contamination. The uncertain nature of the threat and 
potential asymmetric attacks in any area of operation requires that 
chemical and biological defense capability be integrated, modular, and 
tailorable throughout these programs. This portfolio approach 
integrates formally discreet areas of chemical, biological, 
radiological, and nuclear defense capability namely detection, 
protection, and decontamination into a system-of-systems. Viewing 
chemical, biological, radiological, and nuclear defense as a system-of-
systems facilitates the insertion of new technologies and, through 
them, the development of new capabilities.
    Exploiting chemical, biological, radiological, and nuclear defense 
technology opportunities will also facilitate future joint operational 
concepts. The joint chemical, biological, radiological, and nuclear 
defense concepts must be based on an integrated system-of-system view 
where chemical, biological, radiological, and nuclear defense packages 
can be modular, tailored to the mission, environment or situation. The 
objective is to provide commanders the flexibility to understand and 
act on the common operating picture without degrading operating tempo 
or survivability.
    The common operating picture should include chemical, biological, 
radiological, and nuclear considerations based on data fused from 
multiple chemical, biological, radiological, and nuclear sensors and 
non-Chemical, Biological, Radiological and Nuclear sensor sources. 
These sensors should be modular, plug-and-play, and operate in a net-
centric environment, meaning they should be transferable from one 
platform to another (e.g. soldiers can move sensors from Stryker 
vehicles to Mine Resistant Ambush Protected vehicles to Blackhawk 
helicopters as required.) Analysis and decision tools which integrate 
chemical, biological, radiological, and nuclear and non-chemical, 
biological, radiological, and nuclear information should enable rapid 
decisionmaking at the strategic, tactical, and unit level to protect 
the force. The goal is for all of our forces to fight and win in a CBRN 
environment.
              4. globalizing our technology and expertise
International, Interagency, and Industry collaboration can mitigate the 
        broadened threat context
    The CBDP is actively involved in numerous cooperative efforts in 
chemical and biological defense material developments through 
bilateral, multilateral, and allied agreements and structures. These 
include the Australian, Canadian, United Kingdom, United States 
chemical, biological, and radiological memorandum of understanding 
activities, North Atlantic Treaty Organization joint consultative group 
chemical, biological, radiological, and nuclear activities, and 
bilateral forums with the United Kingdom, Japan, Republic of Korea, and 
other countries with advanced development efforts in chemical and 
biological defense. These venues link the CBDP to government military 
and non-military research, development, and test and evaluation 
organizations involved in chemical and biological defense materiel 
development efforts. The JPEO CBD participates in the foreign military 
sales process to enhance interoperability with our allies, and 
cooperative development activities under these programs reduce our 
development costs through burden sharing and leveraging of others' 
significant investments in chemical and biological defense and increase 
our access to the broadest possible spectrum of available chemical and 
biological defense technologies.
    The CBDP is also beginning to increase its leveraging of existing 
DOD and broader United States Government presence throughout the world 
as it searches for the best and most advanced technologies to meet its 
program requirements. Through more than 34 offices in 21 countries on 6 
continents, we maintain awareness of all potentially beneficial foreign 
technologies that are available to meet our requirements. Together 
these efforts will ensure an ability to identify, assess, develop, and 
exploit military and civilian technology and materiel developments in 
chemical and biological defense on a global basis.
    We have multiple interagency partners. For chemical and biological 
programs in the physical sciences, we have nine projects being worked 
for the CBDP by the DARPA; the performance standardization projects for 
biological sampling methods and polymerase chain reaction assay 
equivalency with the Center for Disease Control and the DHS; and the 
Biomonitoring Memorandum of Understanding governing development of a 
coordinated environmental biological weapon surveillance architecture 
with the DHS, United States Postal Service, the HHS, and the 
Environmental Protection Agency. .For chemical, biological, 
radiological and nuclear medical systems we are working with the DARPA 
to shorten development time and decrease the costs of vaccine 
development, and with HHS to form a Joint National Stockpile for 
fielded products and continued collaboration on numerous developmental 
products. As previously noted, a joint stockpile currently exists for 
the smallpox vaccine and one is being developed for the anthrax 
vaccine.
    We have contracts with over 100 large and small companies located 
across the United States. Industry is a key partner in our efforts both 
to exploit technological opportunities and to rapidly field commercial 
off-the-shelf capabilities. We work with the joint science and 
technology office to regularly incorporate opportunities for industry 
to demonstrate their most advanced products within the construct of 
Technology Demonstration Assessments and Technology Demonstration 
Evaluations.
Federal, State, and local collaboration (Military-Civil Integration) 
        can mitigate the new threat relationships and the new concept 
        of security
    In additional to our national partnerships with the DHS and other 
Federal agencies, we have strengthened our partnerships with other 
Federal, state and local agencies ensuring our military installations 
are prepared to mutually support and interoperate with the civilian 
communities in which they reside. We have already mentioned our 
partnership with the BioWatch Program and how that has fostered strong 
relationships between local BioWatch decision-makers and their 
neighboring military installations. The common alerting protocol allows 
a warning message to be consistently disseminated simultaneously over 
many warning systems to many applications. Improving information 
sharing and management is a critical component our efforts to better 
integrate with the local community to ensure a coordinated and 
effective response.
    We have made steady and significant progress in military-civilian 
coordination efforts. Interoperability between DOD and civilian 
capabilities are paramount to national security. Our strategy is to 
enable and facilitate coordinated preparedness planning activities, 
working collaboratively with our civilian counterparts to maximize the 
efficiency and effectiveness of both our military and civilian assets. 
We must collectively ensure that the capabilities we deploy are not 
only adequate, comprehensive and scalable but also complementary and 
coordinated, to ensure the protection of our most precious assets, our 
military and civilian citizens.
                             5. challenges
    We are facing a long-term threat that poses significant challenges 
to our success. I would like to provide details on several key points.
    Stand-Off Detection
    Stand-off identification of chemical and biological agents remains 
a fundamentally difficult problem. We are pursuing several advanced 
technologies to improve performance, but stand-off technologies are 
unlikely to provide the same fidelity of information that the 
technology used in point sensors can. To mitigate this inherent 
shortcoming, we are using point and stand-off sensors together, 
combining the early warning strength of stand-off detection with the 
fidelity of point sensing.
    Technology Development for Decontamination
    There are a range of technical challenges associated with chemical, 
biological, radiological, and nuclear decontamination. Our warfighters 
need decontaminants that are safe for sensitive equipment, do not 
require an extensive logistic footprint, able to decontaminate a broad 
spectrum of agents, are environmentally safe, and pose no unacceptable 
health hazards. New technology developments are required to provide 
decontamination systems that effectively clean all surfaces and 
materials while simultaneously reducing the manpower and logistics 
burden. Especially challenging is a single all-hazard decontamination 
solution that eliminates all threats while not damaging materials such 
as plastics, fabrics, and composites.
    ``All-Hazards'' Capabilities
    Many factors drive us toward providing our warfighters the full 
range of protection, detection and decontamination capabilities against 
``all-hazards.'' By ``all-hazards'' I mean that the threat can come 
from an adversary's use of traditional chemical warfare agents, 
advanced/future chemical agents and biological warfare agents, or even 
toxic industrial chemicals. These threats can come from state actors, 
terrorists, or the individual. ``All-hazards'' can include the effects 
of intentional and unintentional releases of hazardous materials to 
include natural disasters. These types of threats can be encountered at 
home or abroad and in a hostile or benign environment. All of these 
variables significantly challenge our technology requirements.
    Synchronization of Information Systems with Service Oriented 
        Architecture
    Chemical, biological, radiological, and nuclear information systems 
are evolving to enable automatic collection and fusion of information 
from all chemical, biological, radiological, and nuclear defense assets 
throughout the battle space, and integrate that data. A significant 
challenge is to integrate relevant information into the Services 
information systems and architectures.
    Maintaining the Industrial Base Capabilities
    The chemical and biological defense industrial base is 
characterized as small niche defense-centric sectors embedded in larger 
commercially dominant industries such as materials, textiles, 
pharmaceuticals, and electronic equipment. The ability to maintain a 
healthy industrial base--commercial and organic--capable of responding 
to wartime surge requirements is a challenge and we work closely with 
our Service partners, the Defense Logistics Agency, the Defense 
Management Contract Agency, and others to proactively identify, plan 
for, and execute strategies that ensure we maintain vital industrial 
base capabilities.
    Food and Drug Administration and Bio-surety Regulations
    All CBDP medical products, by law, must be FDA approved. The FDA 
regulatory process is complex, with increasing development costs and 
schedules due to many factors, including: additional studies required 
to maintain compliance with FDA regulations, increasing cost of 
research tools and increasing clinical trial size and complexity. In 
spite of these industry-wide challenges, CBDP medical programs remain 
competitive with industry benchmarks in obtaining FDA approval for 
medical countermeasures.
    Policy for the Selling of DOD Equipment to Civil Authorities
    We are working with the Office of Federal Procurement Policy to 
facilitate the sales of equipment developed for DOD to civil 
authorities in accordance with the National Defense Authorization Act 
for Fiscal Year 2004.
    Common Test and Performance Standards
    Common test and performance standards across agencies and 
operational areas continue to challenge the efficient use of technology 
and impede interoperability. We are working with Federal, State, and 
local agencies through the interagency board to develop these common 
standards.
    Urban Environment
    The urban environment contains many unique challenges to providing 
WMD protection or consequence management capability. The raw materials 
present in any urban environment include a broad array of chemicals, to 
include toxic industrial chemicals. The urban environment also has very 
localized atmospheric conditions with a great degree of variance across 
the urban landscape due to differences in infrastructure height, 
density and throughways. We are working to overcome these challenges 
with detectors, protective equipment and decontamination equipment that 
possess both a conventional warfare agent and a toxic industrial 
chemical capability. We are also working to upgrade our decision 
support tools to account for the unique atmospheric conditions present 
in an urban environment and how those conditions influence the spread 
of hazards within that environment.
    Funding
    Our capability development must keep pace with the rapid advances 
in science, which directly influence the scope and structure of threat 
agents. To do this we must put adequate funding in place to ensure our 
capability matches this fast changing and uncertain environment.
                               6. summary
    Mr. Chairman and distinguished subcommittee members, I would like 
to thank you for allowing me to provide this written testimony. Your 
continued support of the chemical biological defense program is crucial 
for our military and nation to succeed in the face of a chemical or 
biological attack. We have been successful in fielding equipment and 
pharmaceuticals over the last several years to counter the current 
chemical and biological threat. We fully recognize that even the 
smallest use of a chemical, biological, radiological, or nuclear weapon 
can create an environment of instability, doubt and fear among our 
allies and citizens at home and we are deploying interoperable systems 
at our installations worldwide to address this threat. We are in the 
process of developing broad-spectrum technologies that we will 
integrate into a system of systems to counter the evolving threat. We 
are working closely with our interagency partners to defend the 
homeland. With your guidance and assistance, together, we are bringing 
future technologies forward to protect our military and the Nation 
against the chemical, biological, radiological, and nuclear threat.

    Senator Reed. Thank you very much, General.
    Dr. Cerveny?

STATEMENT OF DR. T. JAN CERVENY, ASSISTANT DEPUTY ADMINISTRATOR 
FOR NONPROLIFERATION RESEARCH AND ENGINEERING, NATIONAL NUCLEAR 
         SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    Dr. Cerveny. Good afternoon, Chairman Reed, Senator Dole.
    I am pleased to be here this afternoon to testify on behalf 
of NNSA to your subcommittee on the critical nature of work 
underway in NNSA and how we work closely with other executive 
branch organizations, many of which are represented in this 
hearing room, to advance the nonproliferation objectives of 
this Nation.
    Acquisition of WMDs by rogue states or terrorists stands as 
one of the most potent threats to the United States and 
international security. The continued pursuit of nuclear 
weapons by terrorists and states of concern underscores the 
urgency of NNSA's defense nuclear nonproliferation efforts to 
secure vulnerable nuclear weapons and weapons-usable nuclear 
materials, to detect and interdict nuclear and radiological 
materials and WMD-related equipment, to halt the production of 
fissile material, and, ultimately, to dispose of surplus 
weapons-usable materials.
    Our Office of Nonproliferation R&D supports NNSA 
programmatic missions by providing innovative technology and 
scientific advice. The core mission of the Office of 
Nonproliferation R&D is to develop the next generation of 
nuclear nonproliferation sensors and detection capabilities, as 
you stated earlier.
    We execute our programs through a variety of high-tech 
institutions and organizations, such as leading universities, 
small businesses, industry, and, most importantly, the U.S. 
national laboratories. The laboratories are truly our go-to 
guys for unique, cutting-edge R&D, and they play a critical 
role in transitioning our technology into operational systems 
and platforms.
    Our programs focus on providing long-term, stable guidance 
and funding for R&D through two primary programmatic offices--
Proliferation Detection, or pre-detonation or pre-boom, and 
Nuclear Detonation Detection (NDD), or post-detonation, post-
boom.
    Proliferation Detection focuses R&D resources on detection 
of foreign production of highly enriched uranium, detection of 
foreign production of plutonium, and advancing the state-of-
the-art for detection of illicit movement of enriched uranium 
or plutonium or special nuclear materials, as we call them.
    These mission areas are supported by enabling technology 
development in areas like remote sensing, as in our display, 
advanced radiation detection materials, and simulation 
algorithms and modeling. Further, we have a robust test and 
evaluation program focused on ensuring that new technologies 
are suitable for transitioning to our operational partners.
    The other office in my area, NDD, the post-boom piece, 
provides the operational systems and know-how to detect nuclear 
detonations anywhere in the world, 24/7, 365 days, whether they 
are underground, in the atmosphere, or in space. NDD also 
develops the tools, technologies, and science related to 
collecting and analyzing forensic information gathered after a 
nuclear detonation in conjunction with the work of DHS and 
DTRA.
    I would like to turn now to NNSA's longstanding close and 
collegial relationship with DOD, specifically the DTRA. I am 
pleased to be here testifying with my colleague, Dr. Tegnelia 
of DTRA. DTRA and NNSA, as well as our collective predecessor 
organizations, have nearly 60 years of close technical 
cooperation.
    From the earliest days of the Manhattan Project through the 
nuclear testing era of the Cold War and into our current 
programs to counter the threat of WMD, we have enjoyed a 
healthy and continuous set of joint programs. A key premise of 
the NNSA nonproliferation R&D program is that research projects 
may have many different users, those within NNSA, the DOD 
agencies, the military Services, the Director of National 
Intelligence (DNI) agencies, and/or DHS agencies.
    We concentrate on advancing the fundamental state-of-the-
art in the particular technology area and then pass that 
technical capability on to a user for incorporation into a 
specific piece of equipment or a specific concept of operation.
    In the case of DOD, this often means a close association 
not only with the R&D components of the various DOD 
organizations, but also with the operational components of DOD.
    Turning to our continuing interactions with other 
Government agencies, I would like to highlight a four-way 
memorandum of understanding (MOU) with NNSA, DTRA, the Domestic 
Nuclear Detection Office from DHS, and the DNI's Science and 
Technology (S&T) Office, wherein we coordinate our radiation 
detection R&D programs. Not only do we review each other's 
research proposals jointly, we sit on merit review committees 
for each other's programs annually and thus benefit from this 
very close collaboration of knowing what each other is doing.
    We collectively work to ensure that duplication of effort 
across the agencies is minimized. But more importantly, we 
bring significantly more resources, emphasis, and senior 
attention to bear on the areas critical to national and 
homeland security.
    All of the projects on our display today that I believe 
both of you had the opportunity to see have been either 
developed in conjunction with DTRA or with DTRA's DOD customer 
set in mind. These projects were consciously focused to meet 
operational needs and requirements.
    In conclusion, I have provided but a few highlights of our 
program and touched upon the collaborative interface and 
interactions our program has shared with other Federal 
partners. We continue to serve as a primary long-term investor 
into nuclear nonproliferation R&D technologies to keep our 
national and homeland security operational associates on the 
cutting edge.
    In summary, I would like to thank the subcommittee for this 
opportunity to provide information on the critical nuclear 
nonproliferation-related R&D underway at NNSA and the ways we 
link this work with partner organizations.
    With that said, I am happy to answer any questions.
    [The prepared statement of Dr. Cerveny follows:]
                Prepared Statement by Dr. T. Jan Cerveny
    Good afternoon Mr. Chairman, distinguished members of the 
subcommittee. I am pleased to be here this afternoon to testify on 
behalf of National Nuclear Security Administration (NNSA) to your 
subcommittee on the critical nature of the work underway in NNSA and 
how we work closely with other executive branch organizations, many of 
which are represented in this hearing room, to advance the 
nonproliferation objectives of the Nation.
                            i. introduction
    Acquisition of nuclear and other weapons of mass destruction (WMD) 
and related technologies, equipment and expertise by rogue states or 
terrorists stands as one of the most potent threats to the United 
States and international security. The continued pursuit of nuclear 
weapons by terrorists and states of concern underscores the urgency of 
NNSA's efforts to secure vulnerable nuclear weapons and weapons-usable 
nuclear materials, to detect and interdict nuclear and radiological 
materials and WMD-related equipment, to halt the production of fissile 
material, and ultimately, to dispose of surplus weapons-usable 
materials.
    NNSA supports the nonproliferation goals of the Nation through a 
broad collection of programs. The Defense Nuclear Nonproliferation 
mission is to detect, secure and dispose of dangerous nuclear and 
radiological materials. To implement this mission, the Office of 
Defense Nuclear Nonproliferation secures civil nuclear and radiological 
materials worldwide; helps to secure Russian nuclear weapons material; 
detects and deters illicit international nuclear transfers; strengthens 
and works to universalize international nonproliferation efforts; 
eliminates weapons-usable material; and conducts cutting-edge research 
and development (R&D). Some examples of these programs include removing 
or securing nuclear materials in the former Soviet Union; installing 
radiation detection monitors and capabilities at major border crossings 
and seaports around the world--known as the Second Line of Defense 
program; and programs such as the Global Threat Reduction Initiative 
(GTRI) aimed at removing proliferation-sensitive radioactive sources 
both domestically and overseas. Our Office of Nonproliferation R&D 
supports the various NNSA programmatic missions by providing innovative 
technology and scientific advice.
             ii. nonproliferation research and development
    The core mission of the Office of Nonproliferation R&D is to 
develop the next generation of nuclear nonproliferation sensors and 
detection capabilities. We execute our programs through a variety of 
high-tech institutions and organizations, such as leading research 
universities, small businesses, industry, and, most importantly, the 
U.S. National Laboratories.
    I cannot emphasize enough the importance of the National Labs to 
the research base for national and homeland security. The National 
Laboratory system has provided the critical infrastructure and 
technical expertise for Nonproliferation R&D for over a half century. 
While we supplement and complement our programs at the National 
Laboratories with research at universities, small businesses, and 
industry, the Laboratories are truly our ``go to guys'' for unique, 
cutting-edge R&D. Additionally, the Labs are critical to the transition 
of our technology into partner agency operational systems and 
platforms.
    The programs of the Office of Nonproliferation R&D focus on 
providing long-term, stable guidance and funding to the community of 
researchers that provides the core of new nuclear detection 
technologies. We accomplish our R&D mission through two primary 
programmatic offices: Proliferation Detection and Nuclear Detonation 
Detection. The emphasis is on developing the vital technologies to 
detect and deter nuclear proliferation, and should detection/deterrence 
fail, we stand ready to meet U.S. nuclear detonation detection goals 
with technology used to characterize a domestic nuclear attack.
Proliferation Detection Research and Development
    The first program, Proliferation Detection, focuses R&D resources 
within three primary mission areas. These include: 1) detection of 
foreign production of highly enriched uranium, 2) detection of foreign 
production of plutonium, and 3) detection of enriched uranium or 
plutonium being moved or transported--radiation detection technology 
focused on advancing the state-of-the-art to detect illicit movement of 
these special nuclear materials. The three mission areas are supported 
by ``enabling'' technology development in areas like remote sensing, 
advanced radiation detection materials, and simulation, algorithms, and 
modeling. Further, the proliferation detection program has a robust 
test and evaluation program focused on ensuring that new technologies 
are suitable for transitioning to the operational communities. 
Undergirding all this work is a final research area focused on creating 
a fundamental library of physical features (chemical, radiological, and 
spectral) of the ``Signatures and Observables'' expected from any 
foreign nuclear production program, which in turn provides a basis for 
developing new detector capability through either the mission or 
enabling technology research areas.
Nuclear Detonation Detection Research and development
    Our second program is Nuclear Detonation Detection. This program 
has three primary mission areas: 1) manufacture of the Nation's 
operational space-based nuclear detonation detection sensors, which are 
integrated onto and operated by the U.S. Air Force on the Nation's GPS 
and high altitude space systems; 2) development of the next generation 
of the Nation's ground-based nuclear detection capabilities such as 
seismic detection, hydroacoustics, and infrasound--again integrated 
into and operated by U.S. Air Force components; and 3) development of 
the tools, technologies, and science related to collecting and 
analyzing the forensic information gathered from a nuclear detonation. 
The capabilities of the nuclear detonation detection R&D program are 
based upon decades of experience gained through the instrumentation of 
the U.S. nuclear testing program. The systems we develop for the Air 
Force have been, and continue to be, a major component of the U.S. 
ability to monitor the globe on the ground, from the air, and in space, 
24x7, 365 days per year for foreign nuclear detonations.
    The 2006 North Korean test of a nuclear device provides the most 
recent example of the efficacy of the cutting-edge technology we 
provide the Air Force for this U.S. program. In this case, the ground-
based mission area of the research program had just delivered a major 
analysis software upgrade from Sandia, Los Alamos, and Lawrence 
Livermore National Laboratories to the Air Force. This new upgrade 
enhanced the Air Force's capability for geo-locating and discriminating 
an underground nuclear blast using seismic measurements, thus improving 
the speed and accuracy of information provided to national decision 
makers regarding the location, magnitude, and type of nuclear test.
         iii. coordination with dod and other federal agencies
    I would like to turn now to NNSA's longstanding, close, and 
collegial relationship with the Department of Defense, specifically the 
Defense Threat Reduction Agency (DTRA). I am pleased to be here 
testifying with Dr. Tegnelia. DTRA and NNSA, as well as our collective 
predecessor organizations, have nearly 60 years of close technical 
cooperation. From the earliest days of the Manhattan Project, through 
the nuclear testing era of the Cold War, and into our current programs 
to maintain the U.S. nuclear stockpile and counter the threat of 
nuclear proliferation, we have enjoyed a healthy and continuous set of 
joint programs. I will concentrate specifically on R&D programs devoted 
to nuclear nonproliferation.
    A key premise of the NNSA Nonproliferation R&D program is that the 
ultimate outcome of any research project may have many different 
users--those within NNSA, the Department of Defense (DOD) agencies, the 
Military Services, the Director of National Intelligence (DNI) 
agencies, and/or the Department of Homeland Security agencies. 
Therefore, we concentrate on advancing the fundamental state-of-the-art 
in a particular technology area, and then pass that technical 
capability on to a user for incorporation into a specific piece of 
equipment or concept of operation that complements their mission. In 
the case of DOD, this often means a close association with not only the 
R&D components of the various DOD organizations, but also with the 
operational components of DOD.
    It is not uncommon for the scientists and engineers from our 
programs at the national laboratories to be testing new equipment at 
locations and in conditions that are not ``ideal'' from a lab bench 
researcher's perspective. A recent example includes several researchers 
from Los Alamos National Laboratory conducting validation experiments 
of a low-light imaging camera in the tropical jungles of Central 
America, while accompanying a military unit. This new technology has 
the potential, along with other possible uses, to track movement 
beneath the thick jungle canopy throughout the equatorial regions of 
the world. While this technology was developed primarily for 
discovering or tracking the movement of nuclear proliferation 
activities, it could potentially be used for counternarcotic or 
counterterrorism operations. I mention this specific example because it 
illustrates the collaborative relationship we in the NNSA 
Nonproliferation R&D office share with our partners to link our 
research to real world needs, such as the larger DOD. The camera is on 
display in the back of the hearing room.
                     iv. interagency collaboration
    Turning to our continuing interactions with other government 
agencies, I'd like to highlight some of our collaborative efforts in 
advancing the Nation's capabilities to detect nuclear material. NNSA, 
under a Memorandum of Agreement with DTRA, the Department of Homeland 
Security's Domestic Nuclear Detection Office (DNDO), and the DNI's 
Science and Technology Office, has integrated our R&D programs devoted 
to radiation detection. Not only do we review research proposals 
jointly, we sit on the merit review committees for each agency's 
programs, and thus benefit from this close collaboration. We 
collectively work to ensure that duplication of effort across agencies 
is minimized, but, more importantly, bring significantly more 
resources, emphasis, and senior attention to bear on areas critical to 
national security.
    Our long-term R&D program funds a wide array of cutting-edge 
technologies. I have select examples of radiation detection R&D and 
technologies under development on display in the back of the hearing 
room. In particular, we have one on display that we share with DTRA. We 
are presenting a video of the technology on a laptop, while DTRA is 
displaying the hardware for the Airborne Radiological Debris Collection 
System (ARCS) developed by Sandia National Laboratories. This smaller, 
lighter, lower power technology collects particulate debris from an 
airborne platform (manned or unmanned) to bring back for analysis. It 
provides significantly improved capability over current bulky, heavy, 
higher power debris collection systems. Since it's integrated into a 
pod, it more flexibly accommodates multiple deployment platforms.
    All of the projects in our display have been either developed in 
conjunction with DTRA, or with DTRA's DOD customer set in mind, and 
consciously focused to meet operational needs and requirements.
                      v. other technology examples
    I would like to draw your attention to another project that has 
significant potential in the proliferation detection realm. Pacific 
Northwest National Laboratory (PNNL) is developing a new type of hand-
held radiation detector called the Pixilated Cadmium-Zinc-Telluride 
Detector. This detector uses a small group of crystals ganged together 
in an array to provide nuclear direction finding and identification 
capabilities not currently seen in commercial or military equipment. 
This technique of combining small, high purity crystals into an array 
was developed to overcome the problems of larger crystals cracking or 
containing inclusions that significantly impair their detection 
capabilities.
    Lawrence Livermore National Laboratory created the R&D 100 Award--
winning technology called the Sonoma Persistent Surveillance System, 
which offers the first integrated, broad-area, high-resolution, real-
time motion tracking system for surveillance applications. Sonoma is 
unique in its ability to provide continuous, real-time video of an area 
the size of a small city with resolutions sufficient to track up to 
8,000 moving objects for applications such as monitoring traffic, 
special events, border security, and harbors. Sonoma's novel imaging 
technologies and real-time processing have generated numerous 
government program spin-offs, and initial capabilities have been 
transferred directly to other government partners. During the past 
year, there have been several inquiries about technology transfer and 
the potential commercialization of the Sonoma system and its associated 
technologies, since it is expected to cost about one-tenth the price of 
comparably sized tracking systems.
                             vi. conclusion
    I have provided but a few highlights of our program and touched 
upon the collaborative interface and interactions our program has 
shared with DTRA and our other Federal partners. We continue to serve 
as a primary long-term investor into nonproliferation R&D technologies 
to keep our national and homeland security operational associates on 
the cutting-edge.
    In summary, I would like to thank the committee for this 
opportunity to provide information on the critical nuclear 
nonproliferation-related R&D underway at NNSA and the ways that we link 
this work with partner organizations. I look forward to answering any 
of your questions.

    Senator Reed. Thank you very much, Dr. Cerveny.
    I want to thank the witnesses for their excellent 
testimony. I also want to thank all of your colleagues, some 
that are here today and some that are across the globe, for the 
work they do. Not only are they employees of DOD and DOE, but 
also civilian contractors who work with you. They provide 
extraordinary advantage to us as we confront these serious 
problems.
    I would like to ask a few questions, then recognize my 
colleague. I would assume also the opportunity to do a second 
round, too. It was excellent testimony. You have laid out 
several serious challenges, and I just wonder if each of you 
could respond because of your experience. What is the issue 
that causes you most concern? Some have already highlighted in 
your initial remarks, but you might want to emphasize it or 
provide additional perspective.
    Also if you were to advise this subcommittee, which, in 
fact, you are, what should we focus on? What should we be 
making sure gets done throughout the research structure? Dr. 
Tegnelia?
    Dr. Tegnelia. There is this question, which is usually 
asked of our leaders: what keeps you up at night or what is 
your worst nightmare? I would second the thought, as I 
indicated in my testimony, that it is a loose nuclear weapon in 
a city in the United States. I would just suggest that. I think 
that is today's current problem.
    I just would reiterate, I think you have heard testimony on 
this before, that the expansion of the Nunn-Lugar program to 
help prevent that kind of danger is maybe the most important 
function that we are performing today.
    For the future, I think the problem that General Reeves and 
I discussed, which is the advancing of biological sciences and 
the potential for advanced biological threats is the threat of 
the future.
    Again, I would suggest to you that in addition to R&D, you 
have heard some ideas, I think, in testimony about the idea of 
expanding Nunn-Lugar to be able to do worldwide prevention of 
these kinds of problems, and the idea of migrating biological 
defense tools worldwide, I think, would be a very valuable 
thing.
    So, in summary, today it is the nuclear problem, and 
tomorrow, it could be the biological problem.
    Senator Reed. Thank you.
    Major General Reeves?
    General Reeves. Thank you, Mr. Chairman.
    I would certainly second for the future threat what Dr. 
Tegnelia just mentioned. It is the biological threat that 
potentially concerns us the most. As you may know, 4 years ago, 
a university in New York, simply by ordering strands of 
deoxyribonucleic acid (DNA) on the Internet, put together a 
polio virus. Just a few weeks ago, a California firm announced 
that they had created the first synthetic bacteria.
    Things that are being done today in high schools, in 
colleges just a few years ago were only done by post-doctorate 
students. That is how fast the biological sciences are 
advancing, and so that certainly concerns us the most.
    In the near-term, our experience with the terrorist threat 
in DOD is that it is strategically sophisticated, but 
tactically very simple. They use what is available, and what is 
most predominantly available are toxic industrial chemicals. I 
know Congress is currently taking action on securing the U.S. 
chemical industry, and I certainly applaud those actions.
    As we look at where we need to do additional research, 
particularly in understanding the performance of these toxic 
industrial chemicals to protect our force is where we are 
focusing some of our efforts. Let me just give you a very 
simple example.
    Many of the models you have seen that show what happens 
when a chemical starts to proliferate through an urban area or 
over open terrain simply models that chemical. Take something 
like boron trifluoride, which is a common chemical that is used 
in the semiconductor industry.
    When that chemical hits the air, it changes. It changes 
into hydrogen chloride. It changes into an acid. Models don't 
accommodate for those changes. It has different performance 
characteristics. So we need to go through literally our entire 
inventory of equipment to look at how do we deal with those 
threats, and how do we provide immediate and near-term 
protection for our force?
    Senator Reed. Thank you. I want to ask the same question of 
Dr. Cerveny. But if I may follow up, essentially, the 
barriers--as you have said, to entry to the biological business 
are much lower than the nuclear business.
    General Reeves. Yes, sir.
    Senator Reed. The model and the mindset we have applied to 
nuclear deterrence and nuclear nonproliferation might not be 
adequate because, again, it seems everybody can get in this 
business of biological or chemicals, and it raises the question 
of even if we are innovative and improvise very well, can we 
keep up?
    You might comment, then I will recognize Dr. Cerveny. Do 
you have a sense--this is a different dynamic than the nuclear 
situation?
    General Reeves. It certainly is, and I think what you have 
to do is look at how do you go about developing the tools for 
rapid broad-based identification of these threats. That is 
exactly where we are focusing our efforts right now. We are 
focusing them on things like genetic sequencing and bio 
informatics.
    How do we leverage the mega technologies of information 
technology and biotechnology to, first, develop a platform so 
that we can identify what is going on? Second, you have to 
develop a very rapid means of developing a countermeasure and 
then ultimately producing that countermeasure.
    That is a lot of what the TMTI is all about, is the 
identification and having prepositioned, if you will, platform 
technologies that we can rapidly build on to develop 
countermeasures and, with our partners in DARPA, developing the 
manufacturing capabilities to rapidly produce the 
countermeasure.
    Senator Reed. Thank you, General Reeves.
    Dr. Cerveny, the larger question was, as Dr. Tegnelia said, 
what keeps you up at night?
    Dr. Cerveny. The concerns that I have, have to do with the 
three major missions that we have to ensure that we can try to 
accomplish them. One is to look at the nuclear fuel cycle and 
try to find those who may be trying to proliferate. That is a 
big issue for us.
    In addition, if we miss that and it does get into a weapon 
system, we want to be able to find that weapon system. Then, 
God forbid, it should go to the end and a nuclear weapon that 
is already full-up gets stolen and detonated somewhere. We want 
to be able to do the aftermath, detection of what is going on, 
to be able to do all the forensics associated with that. So 
those are my three major areas of concern.
    Senator Reed. Following up on that, Dr. Cerveny and Dr. 
Tegnelia, the National Security Presidential Directive (NSPD)-
17 and Homeland Security Presidential Directive (HSPD)-4 
assigned nuclear forensic and attribution responsibilities 
across the executive branch. Could you comment on essentially 
your responsibilities and how this is proceeding, the 
coordination process? If you could start, Dr. Cerveny?
    Dr. Cerveny. I am doing some of the research at the front 
end. So I have transitioned that both to DTRA as well as to the 
FBI as well as DOD and/or other components of DHS.
    Senator Reed. Dr. Tegnelia?
    Dr. Tegnelia. Sir, NSPD-17 and HSPD-4 basically indicated 
that DHS was the lead in the attribution and forensics 
capability. It works with the Intelligence Community (IC), 
which has the responsibility to provide the information for 
decisions.
    DHS broke that activity up into two pieces. One was pre-
detonation and one was post-detonation. DTRA is responsible for 
worldwide post-detonation collection of the debris for 
analysis. We work with DHS, as I mentioned, as the lead. We 
work with the DOE because their laboratories are the people who 
are going to do the analysis of these remains of a device and 
make the attribution as to who it is technically.
    Then we also work with the FBI because the FBI has 
responsibility inside of the United States for the 
investigation of these types of devices. That is how the NSPD 
separates out the responsibilities.
    Senator Reed. One follow-up question, Dr. Cerveny, and then 
I will recognize Senator Dole. I do have more questions for the 
whole panel.
    But this attribution process assumes that you have a 
database, which you can match up, that you can, in fact, 
identify and attribute to an entity or country. How are we 
doing on that database creation?
    Dr. Cerveny. That database creation, I believe you are 
talking about the Nuclear Materials Information Program that is 
being created by the IC? Is that what I presume you are saying?
    Senator Reed. I am just generally talking about from your 
perspective because you were doing research to identify 
materiel, but then you have to match it up with something. I am 
asking from your perspective, how is that something coming, I 
guess?
    Dr. Cerveny. Exactly. From the testing era, when we had the 
Cold War testing era, there is quite a bit of data from there 
from the Russians and from us, from our testing itself. What we 
do with that is match against that.
    Some of the newer stuff that the proliferants may be trying 
to make is going to be a bigger challenge for us because there 
is no database on that.
    Senator Reed. Any other comments? Dr. Tegnelia?
    Dr. Tegnelia. I guess I would add to that that the subject 
of broadening that database is under active pursuit by the IC, 
and at least my experience is they are paying full attention to 
trying to do what you are suggesting.
    Senator Reed. Thank you very much.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Dr. Tegnelia and General Reeves, let me ask you about a 
March 2007 report by the DOD Inspector General (IG). It was 
highly critical of the DOD's coordination and management of its 
combating WMD program. The report's main recommendations were 
for the DOD to better coordinate the work of 40 offices 
involved with combating WMD, establish a process to measure 
performance, clearly identify the use of the funds budgeted for 
the program throughout the Department, and propose legislation 
requiring that the Federal agencies involved in combating WMD 
coordinate with one another.
    Could you give me your assessments of the IG report and 
what steps has the DOD, including your own organization, taken 
in response to the IG report? Could we start with you, Doctor, 
and then, General Reeves, ask you to respond?
    Dr. Tegnelia. Yes, ma'am. As you indicated, there were two 
elements of the report. The first, there were 40 organizations 
who were all dealing with WMD. I would suggest to you that the 
report was written with data that was done in 2005, and a lot 
has happened since 2005 to address the issue that you are 
concerned about.
    I would suggest to you that having a reasonable number of 
organizations concerned with WMD is a strength, not a weakness. 
For example, there are 50 civil support teams, all of which are 
trained to handle WMD. So having a reasonable number of 
organizations concerned with WMD is a strength, not a weakness.
    The problem is to make sure that they are all working 
together and on the same page. What has happened since that 
time is the formation of the STRATCOM as the lead combatant 
command for combating WMD. It is that command's responsibility 
to get all of these units working together, working in concert 
to be able to help both local communities and so on through 
Northern Command (NORTHCOM), and also our allies in the process 
of doing that.
    So my sense is that the situation has changed significantly 
since STRATCOM has been on the scene in trying to help 
orchestrate the problems that that report indicated.
    Senator Dole. Thank you.
    General Reeves?
    General Reeves. Ma'am, I would second that and add to 
STRATCOM, NORTHCOM as well. Those two major commands between 
the homeland defense mission and the larger civil support 
mission, have helped consolidate a number of the activities.
    As you indicated earlier, in the case of the research, 
development, and acquisition of equipment, that has, in fact, 
all been consolidated under a single office and that has been 
an ongoing program now for a number of years, which we continue 
to have a very robust single chain of command, if you will, to 
execute that program.
    Senator Dole. Thank you.
    Dr. Cerveny, with the aging and gradual passing of the 
Manhattan Project generation of nuclear scientists, our Nation 
is facing a loss of scientific expertise in the nuclear field 
that will be hard to replace. Recent studies highlighted the 
need to replace the retiring generation of scientists who have 
the skills to contribute to the field of nuclear forensics 
through which scientists can discern the age and origin of 
nuclear materials.
    Are you finding that this loss of expertise is a problem 
the R&D programs are experiencing under your purview?
    Dr. Cerveny. It is starting to happen, Senator Dole. Within 
5 years, we are probably going to have a pretty serious impact 
because of, as you said, the age that these folks are becoming. 
They are ready to retire now.
    There are younger ones that are coming into the fold. I 
don't want to in any way denigrate them, but they don't have 
the experience of any of the testing that we have done or even 
the Manhattan Project type of information that those senior 
scientists have available in their brains.
    The younger ones are bright, no doubt about it. But lacking 
that experience and finding a way to maybe hook a wire to the 
older guys who are retiring heads and do a data dump into the 
younger folks would be wonderful. But it is very difficult to 
find, and we are working hard on that with the laboratory 
community to ensure we do get some of that transition 
occurring. It is a challenge.
    I did read the report that you are talking about, the 
National Academy of Science (NAS) report. It was quite sobering 
to read that.
    Senator Dole. Right. Yes, and I wonder if there is anything 
this subcommittee could do to be helpful? Perhaps by 
authorizing some kind of fellowship program to attract young 
scientists, more young scientists to the disciplines where you 
foresee shortfalls? I understand what you are saying about the 
degree of expertise, but in general, do you think there is a 
need to just attract more young people into this area, and 
could we be of any help in that respect?
    Dr. Cerveny. From the standpoint of do we need to attract 
more? Yes, and we are working very hard on that. In fact, it is 
interesting you should ask. We had a conversation with our 
laboratory partners yesterday about how we could do this, if we 
could develop fellowships or establish fellowships to encourage 
them to potentially come into the laboratory for a short 
timeframe and then rotate into the Washington office here in 
D.C. to get the flavor of what is going on from the overall 
standpoint.
    So we are working on doing those sorts of things. Maybe not 
to the degree that you are interested in, but we are definitely 
working on trying to make that happen.
    Senator Dole. Okay, thank you.
    General Reeves, how would you characterize our technical 
progress in improving the accuracy of our sensors, both 
detection of agents and reduction of false positives. What are 
the major technical challenges which remain to be solved in the 
area of sensor technology?
    General Reeves. There are really two major areas. One has 
to do with stand-off technology, which is clearly extremely 
problematic. In order to identify an agent, be it chemical, 
biological, or radiological--presents a large variety of issues 
with atmospherics, the type of sensor, and literally where you 
can use that sensor.
    The second major issue we have is in, as you point out, 
false alarms, which is sensitivity and selectivity. That has 
gotten progressively better and, I would argue, almost 
exponentially better over the last few years. In June of this 
year, because there has been so much work not only within the 
Government, but also by private industry in this area, we will 
be holding a technology readiness evaluation at Dugway Proving 
Grounds, where we will allow both laboratories, within DOD and 
outside of DOD, and private industry to come to Dugway to 
demonstrate their capabilities and then independently evaluate 
their technology readiness levels.
    It is our view that they have gotten significantly better, 
that we can reduce our own investment to some degree for point 
sensors in the biological detection area and leverage good work 
that has already been done in lots of other areas. So it is 
actually a cost avoidance to us.
    Senator Dole. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Dole.
    Dr. Tegnelia, in your comments, you said that local 
responders are proficient in handling a low-yield incident, but 
that there is a gap with high-yield incidents. How difficult it 
is relative to a low-yield to stage a high-yield, that is, if 
the high-yield is something of a probability of 1 percent, then 
that gap is not as worrisome if that probability is something 
closer to 50 percent.
    Can you give us an idea in this session of how much we have 
to worry about that lack of capability?
    Dr. Tegnelia. I was thinking about that question, and it is 
an important question. I would just tell you that in an open 
hearing, it is hard to discuss that specifically. But we are 
thinking about the question that you are concerned about.
    Senator Reed. Fine, fine. It is an important question.
    Dr. Tegnelia. Yes, sir.
    Senator Reed. It has to be handled in a more confidential 
manner.
    Let me ask all of you because one of the issues that 
perennially arises when you develop technology is getting it 
into the hands of the field workers, the people out there that 
actually do it. Can you give us a notion of how you think we 
are doing in transitioning technology? What are the chokepoints 
that we have to worry about? I will ask each witness.
    Dr. Tegnelia?
    Dr. Tegnelia. My perspective, sir, is that the military 
mission of combating WMD is a relatively new operational 
responsibility for the DOD. We have just put together the 
national strategy and the military strategy for combating WMD, 
and we are now in the process of beginning to field 
capabilities not only with the individual soldier, which 
General Reeves spends a lot of time on, but also unit 
capabilities to handle the missions of WMD.
    We have done something which I think is extremely important 
as a lesson learned from Iraq, and that is how would you 
eliminate chemical, biological, or nuclear weapons should you 
encounter them on the battlefield? Very important problem. 
Something we were concerned about in Iraq.
    We have fielded a capability now through STRATCOM, that 
could help in South Korea. It is actually deployed now in Iraq, 
eliminating these kinds of weapons from the battlefield. That 
is a new capability. It is a brand-new thing that has been 
developed.
    Another example of that is fielding an attribution 
capability, which the NSPD, as you pointed out, is just now 
calling for. So these new units are coming online through 
STRATCOM, and they are being deployed to our combatant 
commanders, including NORTHCOM. We are beginning to exercise 
with them, and we are beginning to build the capability. So we 
are started, but we have a long way to go.
    This is, as I indicated, a new mission, and it is now 
beginning to get the emphasis to field this kind of capability.
    Senator Reed. Thank you.
    General Reeves?
    General Reeves. Sir, in the chem/bio defense program, we do 
three things. First, we have a formal process to ensure that 
our investments in S&T transition to advanced development. We 
use something called technology transition agreements, which 
are a formal agreement between the S&T developer and one of my 
project managers to ensure that they are mutually understanding 
what that technology is, and they are ready to accept it, and 
we have put the resources in place to use it.
    Second, we conduct quarterly reviews.
    Third, on a biannual basis, our joint staff looks at the 
roadmaps to ensure that those investments are reaching to 
advanced development and to procurement.
    The second thing we do, as I mentioned a moment ago, are 
technology readiness evaluations, which are independently 
assessed, which gives laboratories and commercial industry the 
opportunity to demonstrate their technologies and what their 
technology readiness levels are. We use a formal process by an 
independent assessor to do that.
    The third part, which is just now beginning, and I think it 
is an important initiative--and I would specifically compliment 
the Edgewood Chemical and Biological Center for doing this--is 
an educational component. One of the things we need to do with 
our researchers and scientists is to get them to understand 
that not all technology is necessarily good or useful. At some 
point, you have to look at technology from the standpoint of is 
it affordable? Can it be produced? Can you sustain it in the 
field?
    They have developed a formal program to educate their basic 
research scientists to help think in those terms and use those 
kinds of filters before we make substantial investments in a 
technology we discover we can't use in the end.
    Senator Reed. Thank you.
    Dr. Cerveny?
    Dr. Cerveny. Thank you. For my program, we have instituted 
a whole host of things because a transition for a program that 
is a long-term R&D program is considered to be the valley of 
death that can occur for research technology that you develop 
and suddenly nobody is really interested in it.
    What we have tried to do is include the operators and we 
actually do include the operators on the upfront of developing 
what our roadmaps are going to be and where we are going to go 
to ensure we have what their needs and requirements are. In 
some cases, that requires translation on our part because 
oftentimes our users don't know how to tell us in technical 
terms what it is that they want to be made better or lighter or 
more power-friendly.
    So we have to be able to do that integration in between. 
Having the users on our committees for deciding what proposals 
are actually going to get funded in an area once we decide 
where we are going to go, then having them also in our annual 
program reviews for each of the 13 separate programs that we 
have, it has seemed to become very easy for us, as the ones 
that I showed you back here on our display table, the 
integration or the movement, transitioning those to the users 
has happened quite easily for us. They have actually been 
anxious to receive them.
    Does that mean we have solved the entire problem? Not 
entirely. It is still a challenge for us, and we do many of the 
things that my two colleagues here have mentioned as well.
    Senator Reed. Thank you.
    Dr. Cerveny, the budget request at NNSA for 
nonproliferation and verification in fiscal year 2009 is $275 
million. That is $112 million below the fiscal year 2008 
appropriation. That is a substantial reduction. What is not 
going to be accomplished as a result of that reduction?
    Dr. Cerveny. The major difference there is the generosity 
of Congress when they passed the Omnibus and gave me the $112 
million plus-up, which was very kind of them. What I did with 
it was place it into the prioritized areas that we have to 
ensure that we had full-up proposals funded.
    The $275 million actually is level with the real 2008 
request that we put in and the 2007 request. In 2010, I believe 
we are going to be going up, though that number has not been 
established yet for us.
    Senator Reed. The fiscal year 2009 budget eliminates a line 
called supporting activities. Can you describe what that is?
    Dr. Cerveny. Yes, sir. The supporting activities was an 
unusual thing that was a leftover--I have been there for 4 
years. It was a leftover, none of the other components of NNSA 
really showed such a thing. When I inquired what it was, it was 
really money that we transitioned into the two major programs 
that I discussed, the Proliferation Detection and NDD.
    What I did was just transfer those functions that belonged 
to them into them. So nothing really vanished. It just moved to 
where it belonged.
    Senator Reed. I think Congress was persuaded that you 
needed the money, and I think we, given what I have heard 
today, I am no less persuaded. So it is a substantial 
reduction, and the activities, and you are going to have, I 
think, a challenging time to manage with all of the 
responsibilities with $100 million or so less.
    Dr. Cerveny. That is correct. But we have tided folks over 
to ensure that we could use the generosity of Congress to cover 
them for a year or so, forward funding.
    Senator Reed. So we are sort of fasting for a year, but we 
are looking for something much better in the future?
    Dr. Cerveny. No, I forward-funded specific projects to 
ensure that they had continuity to go to their conclusion.
    Senator Reed. You have also suggested that you would need 
additional funding in the succeeding budgets after 2009?
    Dr. Cerveny. Yes. I believe we are going to be getting 
that. But I don't know right now. It has not been given to me 
yet.
    Senator Reed. Okay. Thanks. Let me yield to Senator Dole, 
if she has additional questions, and I have a couple more. 
Senator Dole?
    Senator Dole. Okay. I would like to ask Dr. Tegnelia and 
also General Reeves, do you need additional resources or 
authorities to more effectively carry out the technology R&D 
programs that we have been discussing here today? Do you have 
unfunded priorities in your program areas, so to speak? If so, 
what are they?
    Dr. Tegnelia. I think if I were able to ask you for 
additional funds for programs that we are doing, I guess I 
would give you two or three examples of things that are 
important. The first one is funding the expansion of the Nunn-
Lugar program because it really is the forward defense on 
preventing a lot of these things from happening. The ability to 
extend that worldwide beyond the republics of the former Soviet 
Union would be a very important thing.
    The second priority that I would give you, and I recall 
your question about young people--when your hair gets my color, 
you worry about the next generation of people who are coming 
along. I think there is a very simple thing that can be done to 
bring this next generation onboard, and that is fund the basic 
research programs that the Department is advocating.
    That money ends up in the universities, and you can see 
behind you some of the examples that the universities are 
doing. In addition to getting good technology out, it 
introduces this topic to the people who are in school and ready 
to come out of school.
    I would like to hope that the basic research money we put 
in would bring people into DTRA. If they were introduced to it 
and they stayed in the field, that would be a win all by 
itself. So I would really suggest that you could help us a lot 
with funding the basic research program that we have.
    The last comment that I would make to you is this idea of 
funding the research for the loose nuclear weapons activity and 
the international research on the nuclear detection of fissile 
material and the attribution activity, fielding attribution 
activity. Those things that are all related to the loose 
nuclear weapons, those are the kinds of things that I would 
accelerate.
    Senator Dole. All right. General Reeves?
    General Reeves. Thank you, ma'am. We certainly have 
appreciated the subcommittee's support in the past on the TMTI, 
and we would ask simply that that funding remain constant.
    Should additional funds become available, we would 
certainly like to apply funds towards advancing stand-off 
technologies, both in chemical and biological detection as well 
as looking at the next generation of chemical threats and 
biological threats, and finally at automating certain sampling 
processes, particularly for biological detection, which has a 
very broad-based application across our systems.
    In the area of procurement, our services are particularly 
interested in rapidly fielding the next generation of 
protective masks which we have just produced called the Joint 
Service General Purpose Mask, as well as the next generation of 
chemical agent detectors, which, at the moment, are half the 
cost of the current detector. They are a quarter of the size, 
and they are a tenth of the weight. So they are very anxious to 
get them in the field.
    We will be happy to provide the subcommittee a complete 
list.
    [The information referred to follows:]

    The U.S. Army has a list of underfunded priorities and is provided 
by the Special Assistant (Chemical and Biological Defense and Chemical 
Demilitarization Programs).
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Dole. Thank you.
    Dr. Cerveny, Dr. Tegnelia, in 2005 the Domestic Nuclear 
Detection Office (DNDO) was established within the DHS to 
improve the Nation's capability to detect and report 
unauthorized attempts to import, possess, store, develop, or 
transport nuclear or radiological material for use against the 
United States. How does DNDO coordinate its efforts with DOE 
and DOD, both of which have responsibilities related to nuclear 
detection and homeland defense against nuclear threats?
    Has a division of labor been established that is workable 
and eliminates seams and gaps?
    Dr. Cerveny. We work quite closely with the DNDO. They are 
part of that four-way MOU that I mentioned earlier. The DNDO 
transformational R&D office is the one that we work the closest 
with. The coordination we do with them is extremely tight in 
that we fund maybe one half of something and they will fund the 
other half of something, and we coordinate it closely and then 
transition the data and information back and forth as it is 
needed.
    With the DNDO office, we have had a very close collegial 
relationship with them transitioning information back and 
forth. There has been no difficulty with us working with them.
    Senator Dole. Doctor Tegnelia?
    Dr. Tegnelia. Senator, we also have a good working 
relationship with DNDO. I mentioned to you this important area 
of working on longer-range nuclear detection devices. We do 
that on this joint MOU between--with DNDO as the lead, with DOE 
and DTRA. We share test facilities. We do joint tests together, 
and we work international programs together as well as in DNDO.
    I have a personal interest in it because the top three 
people in DNDO are ex-DTRA people. The community, especially 
where you are concerned with things like nuclear detection and 
characterization, is a small community, and we share people. We 
share people on a continuing basis to make sure that we are 
coordinated.
    Senator Dole. Thank you very much.
    Senator Reed. Thank you very much.
    If I may, I don't want to go too long, but a couple of 
other questions. Dr. Tegnelia, in response to Senator Dole's 
question about the bench, if you will, for scientists, et 
cetera, it underscores that one of the key allies in this 
effort are university research programs, basic research.
    One area that I have heard is not sufficiently supported 
with programs is radiochemistry. I am just wondering if, in 
your view, that is right and, two, what are the other areas of 
shortage that we might think about in the future? Because 
without these talented scientists, this is a much more 
difficult problem.
    Dr. Tegnelia. First of all, the subject of radiochemistry 
is the key technology associated with this problem of 
attribution, and Dr. Cerveny might comment on this. But my 
sense is we are using capabilities that were built in the 
nuclear weapons laboratories that go back quite a ways, and 
building the next generation of nuclear chemists capable of 
being able to do these 21st century problems is extremely 
important to us.
    We put a lot of basic research into that particular 
activity aimed at finding new radiochemistry techniques to 
reduce the time and put in modern equipment to reduce the time 
of analyzing these nuclear events that we have. So that is a 
very important area.
    I keep emphasizing, and maybe I am beginning to get 
repetitive here on the subject of nuclear detection. The 
problem doesn't start if you can't find the nuclear device. So 
detection really is extremely important, and there has not been 
a lot of money that was put into innovative ideas associated 
with nuclear detection.
    Like I mentioned in my opening statement, we do that with 
the DOE. But bringing the universities into this problem to 
come up with new ideas is also an active area of research for 
us. I think the people are interested in trying to do that kind 
of work.
    Just to give you a vignette: we are relatively new in the 
basic research activity. This is our second year. You have 
helped us a lot with the research there. In our second year, 
when we went out with our advertisement for new ideas in 
combating WMD, we got 1,000 proposals back from the 
universities to fund this work.
    So there is a demand out there. The ability to spend basic 
research money well in the universities is there, and I think 
it gives us this dual benefit of new technology as well as 
people introduced to the topic. So I would encourage that kind 
of work.
    Senator Reed. Let me skip to Dr. Cerveny and then ask 
General Reeves the same question about shortages. Dr. Cerveny?
    Dr. Cerveny. The radiochemistry is in the forensics arena 
that we are discussing here. As the NAS study that we just 
recently mentioned, when Mrs. Dole mentioned it and asked me a 
question about it, indicates that to manage the entire system 
the way we have it, if there are just less than 10--somewhere 
between 4 and 8--Ph.D. graduates per year, we would be able to 
replenish the entire workforce within about 5 to 10 years.
    The number of people who do this work in the laboratory are 
really quite small. It is not a huge number of folks who are 
doing this and have this kind of expertise. So it is wonderful 
that we have the individuals who are senior and have the 
significant experience that we would like to do the data dump 
from. But at the same time, we do need to find the replacements 
and get them learning how to do the same sorts of things that 
they do.
    Is there a shortage of radiochemists? Yes and no. From the 
yes side, the shortage is that they don't have the experience 
that we need, and that is where the lacking really is from the 
standpoint of what I do. Now from the standpoint of some of the 
other components, perhaps they need them for a different reason 
because there really is a deficit. But for me, it is the 
experience that I need for them to attain, and we are working 
on trying to get that for them.
    Senator Reed. Major General Reeves, your comments about the 
shortages and chokepoints in terms of talented scientists?
    General Reeves. We absolutely recognize the problem and 
share the concern. As Dr. Tegnelia alluded to, combine the 
aging workforce with a precipitous drop in math, science, and 
engineering graduates, and you have a pretty bad recipe.
    We engage in a range of programs in DOD as well as in the 
Army to address the issue. The good news is we have seen a 
small uptick in the number of biotechnologists or 
multidisciplined biologists. But hard math, hard science, 
engineering as an aggregate remains problematic.
    Some examples of what is going on inside the chemical and 
biological defense program, the Edgewood Chemical and 
Biological Center is engaged with eight different universities 
and colleges, both at the undergraduate and graduate level, on 
an internship basis. The Army Medical Research Institute at 
Fort Detrick, MD, is engaged with four different colleges and 
universities on the same type of program. The chem/bio defense 
program itself funds some interns and postdoctoral studies.
    Congress actually has indirectly assisted us in something 
called the Veterans Reassignment Act, which allows us to 
rapidly bring into the Government noncompetitive people. So as 
we look at our veterans, we look for those who have hard 
science backgrounds, and we get what we call a two-for. We get 
someone who has not only the military background and experience 
and brings that operational perspective to us, but also the 
hard science background and then be able to apply that to the 
technology problems that they know are there.
    Senator Reed. Thank you very much, General.
    Senator Dole, if you don't have any additional questions, I 
would ask that the witnesses be prepared perhaps to respond to 
written questions, if the staff would develop those questions.
    I want to thank you for excellent testimony and a wonderful 
demonstration, and you have outlined some significant 
challenges. So we will need your help going forward, just as we 
have needed it today.
    Thank you very much. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                      anthrax vaccine procurement
    1. Senator Levin. Major General Reeves, the Department of Defense 
(DOD) has been procuring a Food and Drug Administration (FDA)-approved 
vaccine to protect its personnel against anthrax. Last year the 
Department of Health and Human Services (HHS) awarded a contract to 
procure the anthrax vaccine for the Strategic National Stockpile, and 
the DOD has not awarded a new procurement contract. Is DOD committed to 
ensuring that its personnel continue to be vaccinated and protected 
against anthrax?
    General Reeves. Yes, DOD is committed to ensuring that its 
personnel continue to be vaccinated and protected against anthrax. DOD 
and HHS have recently entered into an agreement for a common anthrax 
vaccine stockpile. Using a single U.S. Government contract, 
administered by HHS, we anticipate a cost avoidance of approximately 
$10 million annually. A single contract also ensures sufficient 
procurement to maintain the industrial base.

    2. Senator Levin. Major General Reeves, how does the DOD plan to 
obtain additional anthrax vaccine doses for its personnel? For example, 
will it order them through HHS (through a consolidated stockpile), or 
will DOD procure additional vaccine separately?
    General Reeves. The DOD will obtain anthrax vaccine through the HHS 
Strategic National Stockpile.

    3. Senator Levin. Major General Reeves, what mechanism does DOD 
have in place to ensure that our military forces will have a reliable 
and adequate supply of anthrax vaccine for the next 5 years and beyond?
    General Reeves. The DOD interagency agreement with the HHS/Center 
for Disease Control and Prevention will ensure that our military forces 
will have a reliable and adequate supply of FDA-approved anthrax 
vaccine at least for the next 5 years. This agreement meets the 
requirements for the Strategic National Stockpile established in 
Homeland Security Presidential Directive-21, ``Public Health and 
Medical Preparedness.'' It also implements a single integrated anthrax 
vaccine stockpile management system as recommended in the Government 
Accountability Office Report 08-88, ``Actions Needed to Avoid Repeating 
Past Problems with Procuring New Anthrax Vaccine and Managing the 
Stockpile of Licensed Vaccine''. The agreement provides for a single 
U.S. Government contract for anthrax vaccine and results in a cost 
avoidance of approximately $10 million annually. The agreement also 
takes into consideration the need to ensure sufficient U.S. Government 
procurement to maintain the industrial base.
    The HHS contract awarded to Emergent BioSolutions in September 2007 
is for the delivery of 18.75 million doses of anthrax vaccine through 
fiscal year 2009. With the current 3-year expiration dating of the 
vaccine, this product will remain available to support DOD and other 
government anthrax vaccine requirements through fiscal year 2012. When 
the FDA approves the pending 4-year expiration dating in a previously 
submitted Biologics License Application amendment, this would extend 
vaccine availability to fiscal year 2013. It is my understanding that 
HHS is already preparing its contract strategy to include future 
deliveries beyond the already contracted 2009 date.

    transformational medical technology initiative and alternative 
                               approaches
    4. Senator Levin. Major General Reeves, the DOD is pursuing a 
program called the Transformational Medical Technology Initiative 
(TMTI) to provide broad spectrum protection against a variety of 
biological threats, including newly engineered threats. Is the TMTI 
program intended to provide protection against known biological 
threats, such as botulinum toxin? If so, which threats are intended to 
be covered?
    General Reeves. The TMTI program is intended to provide protection 
against known biological threats such as viral hemorrhagic fevers 
(e.g., Ebola and Marburg) and intra-cellular bacterial pathogens (e.g., 
Tularemia) that we have little to no existing capability to counteract. 
The TMTI capability will also allow us to respond rapidly to new or 
emerging biological threats, particularly new viruses and bacteria. 
TMTI is not specifically targeting known biological threats where some 
capability already exists, such as botulinum toxin, smallpox, and 
anthrax. Our core medical advanced acquisition program has, or is in 
the process of, developing specific vaccines or therapeutic 
countermeasures for these biological threats.

    5. Senator Levin. Major General Reeves, in addition to TMTI, what 
other approaches is the DOD taking to address the established 
biological threats, such as botulinum toxin and Ebola?
    General Reeves. In addition to TMTI, the other approaches the DOD 
takes to address established biological threats include the Chemical 
and Biological Defense Program's core medical science and technology 
(S&T), and advanced acquisition development programs and the purchase 
of off-the-shelf FDA-approved antibiotics. Our core medical research, 
development, and acquisition advanced acquisition program investigates 
and develops diagnostic systems, therapeutics, and vaccines to address 
established biological threats. This includes the FDA-licensed anthrax 
and smallpox vaccines and current development programs for botulinum 
toxin vaccine and plague vaccine. Vaccine development for equine 
encephalitis and ricin are ready to begin as funding becomes available. 
Diagnostic systems are also available based on assays developed from 
genomic reference materials (antigens, nucleic acids, and antibodies).
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                     greatest technology challenge
    6. Senator Reed. Dr. Tegnelia, Major General Reeves, and Dr. 
Cerveny, you are all experts in the area of technology for combating 
weapons of mass destruction (WMD). If there were one technical 
development you most want to achieve in the next 5 years, what would it 
be?
    Dr. Tegnelia. Unfortunately there is no single technical 
development that will immediately put us in a position of considerable 
advantage over our adversary. The threats are diverse and our 
adversaries will always adjust their tactics to take advantage of our 
weak spots. It is therefore critical that we continue to build balanced 
programs in which we very carefully weigh the risks and benefits 
between investments in evolutionary technologies. Technologies that 
deliver incremental advances of our current capabilities and game-
changing technologies which carry much more technical risk yet place us 
in a position of having a much-needed considerable advantage over our 
adversary. While such revolutionary technologies have been identified 
across the spectrum of WMD threats, they are still many decades away.
    Key capabilities that we seek to develop include:

         Global situational awareness infrastructure in which the 
        rapid fusion of intelligence data leads to decisive yet 
        appropriate U.S. Government action within the course of hours
         Broad spectrum or platform therapeutics that can be quickly 
        modified and manufactured (over the course of days or weeks 
        rather than years) in sufficient quantities to respond to an 
        emerging biological threat
         Long-range stand-off detection of WMD threats
         Long-range stand-off neutralization of WMD threats
         Rapid forensic analysis to support the attribution process

    General Reeves. The one technical development we most want to 
achieve in the next 5 years is improving our stand-off detection 
technology, so that we can provide the warfighter and others with a 
significantly enhanced early warning capability. Our existing chemical 
agent stand-off technology can only detect vapor out to a limited 
distance. We are addressing this technological limitation through 
identifying and implementing new technologies, and by developing an 
early warning capability through a system of systems approach.
    We are investigating many different technologies that can 
potentially improve our stand-off ability, such as active and passive 
Light Detection and Ranging (LIDAR) technologies and hyperspectral 
imaging. We are also looking at ways to maximize the effectiveness of 
these technologies through enhanced signal processing. Enhanced signal 
processing allows the technology to better differentiate between the 
hazard and the atmospheric background that is present.
    Dr. Cerveny. Of all the technical challenges we face, we feel our 
most pressing problem is significantly improving our ability to 
consistently, accurately, and from a distance, detect and identify 
shielded Highly-Enriched Uranium (HEU). We are attacking this very 
difficult technical problem from several directions and in conjunction 
with our research and development (R&D) partners in DOD, Department of 
Homeland Security (DHS), and the Director of National Intelligence 
(DNI)/S&T.

    7. Senator Reed. Dr. Tegnelia, Major General Reeves, and Dr. 
Cerveny, is there something that Congress or this subcommittee can do 
to help you achieve that goal?
    Dr. Tegnelia. I greatly appreciate the committee's strong support 
of the Defense Threat Reduction Agency (DTRA) fiscal year 2008 budget 
request. The additional funding provided for stand-off nuclear 
detection, consequence management, and WMD defeat basic research will 
greatly assist our efforts in these critical mission areas. In 
addition, the expansion of the interagency membership of the 
Counterproliferation Review Committee will significantly strengthen 
partnerships among the Combating WMD community of interest. Our fiscal 
year 2009 budget request will carry us down the path that you endorsed 
last year, and I request your support for this program.
    General Reeves. Yes. The continued support of Congress and in 
particular, the continued cooperation between this subcommittee and the 
Chemical and Biological Defense Program, will be of significant help in 
achieving this goal.
    Dr. Cerveny. All the requisite congressional actions and 
authorities have already been put in place to allow this work. On the 
serious problem of locating shielded HEU, we face many challenges, both 
scientific and technical. Congress has provided much needed assistance 
over the past few years, which has made our task more manageable. We 
look forward to continuing progress in these key areas.

                            capability gaps
    8. Senator Reed. Dr. Tegnelia, Major General Reeves, and Dr. 
Cerveny, in an area as dangerous as WMD, we must be careful to ensure 
that we do not allow critical capability gaps to develop into 
unacceptable vulnerabilities. To the extent you can discuss on an 
unclassified basis, what capability gaps have you identified, and what 
steps are you taking to close such gaps?
    Dr. Tegnelia. The United States Strategic Command Center for 
Combating WMD (SCC-WMD) is in the process of identifying capability 
gaps and analyzing solutions to close those gaps. Specifically, the 
SCC-WMD completed or is completing detailed assessments of the 
following CWMD missions: Offensive Operations, Threat Reduction 
Cooperation (TRC), Security Cooperation and Partner Activities (SCPA), 
National Technical Nuclear Forensics, Foreign Consequence Management 
(CM), WMD Defeat, and Radiological and Nuclear Stand-off Detection.
    Based on these assessments, several cross-cutting capability gaps 
were identified and are being addressed. The most critical of these 
involve the limited production and availability of actionable 
intelligence on WMD proliferation networks and global WMD events; the 
duplication of efforts and unnecessary expenditure of time, resources, 
and money caused by the lack of coordination between national agencies 
and the lack of clear guidance on WMD-specific goals, policies, or 
strategies; and insufficient capability to predict, model, and execute 
operations resulting in little to no collateral effects.
    Some steps taken to close these gaps include the development of the 
Situational Awareness CWMD Information Portal and the Interagency CWMD 
Database of Responsibilities, Authorities, and Capabilities to increase 
coordination; the completion of a full capabilities-based assessment on 
the CWMD Offensive Operations mission area which lead to the 
development of a WMD Defeat Initial Capabilities Document (ICD) and a 
Radiological/Nuclear Stand-off Detection ICD; and the completion of a 
needs assessment for SCPA and TRC. The SCC-WMD is also leading an 
assessment of the CM mitigation requirement of the Geographical 
Combatant Commanders (GCC). This assessment will address requirements 
necessary to mitigate an overseas Chemical, Biological, Radiological, 
and Nuclear (CBRN) event, and identify the assets that GCCs could offer 
in a Foreign CM situation. Finally, the SCC-WMD completed a detailed 
capabilities-based assessment of tasks, capabilities, and solutions for 
conducting National Technical Nuclear Forensics. The DTRA worked with 
SCC-WMD to develop forensic tactics, techniques, and procedures, which 
will be validated in upcoming exercises. Additionally, SCC-WMD and DTRA 
work continuously with other members of the broader CWMD enterprise to 
be responsive to warfighter operational needs.
    General Reeves. The Chemical and Biological Defense Program has 43 
programs of record to address capability gaps across the spectrum of 
needed chemical and biological defense capabilities. Some of these 
capability gaps present us with a more difficult challenge than others. 
Difficult challenges include technologies for stand-off detection. They 
also include decontamination, detection, and protection capabilities 
across the entire spectrum of threat agents.
    The steps we are taking to meet these challenges include 
determining the ability of existing government and commercial off-the-
shelf capabilities to rapidly address these gaps, either as an 
individual technology or within a system of systems approach. We have 
identified our challenges in these areas to academia, industry, and the 
S&T base and they have helped us to identify emerging technologies that 
can contribute to closing these gaps.
    Dr. Cerveny. In fiscal year 2006, my office embarked on a 
considerable effort to develop strategic plans to identify the critical 
capability/technology gaps of the nonproliferation community, drawing 
inputs from the R&D and user communities. With these capability gaps 
identified, we generated long-term technical roadmaps to focus our R&D 
efforts to meet current and anticipated future capability needs, 
including the shielded HEU problem discussed previously.

                   intelligence community interaction
    9. Senator Reed. Dr. Tegnelia, Major General Reeves, and Dr. 
Cerveny, the Intelligence Community (IC) is a critical partner in our 
overall efforts to reduce and eliminate threats from WMD, as you noted 
in your testimony. How are your research and technology development 
programs informed by threat analyses of the IC?
    Dr. Tegnelia. DTRA is acutely aware that the WMD threat is 
constantly evolving and that timely and accurate intelligence is 
fundamental to the application of sound Research, Development, Test and 
Evaluation (RDT&E) programs. Across the Combating WMD mission, DTRA 
works closely through established channels with the IC to improve 
situational awareness of current and anticipated threats, and to 
provide technical information that will support the IC in its mission. 
We also collaborate with the IC on special projects of mutual interest 
and conduct periodic S&T exchanges to share the latest information on 
the threat. Lastly, our RDT&E programs are based largely upon threat 
assessments from the IC, as well as combatant commanders' evaluation of 
shortfalls in operational capabilities and the opportunities provided 
by the promise of maturing technologies.
    General Reeves. Our research and technology development programs 
are informed of threat analysis via the IC through both formal and 
informal means. The formal means includes IC participation in 
developing, and review of, program documentation such as the System 
Threat Assessment Report and Joint Threat Test Support Package. These 
documents feed the requirements development process, product 
development, and test and evaluation process for each program. Other 
formal means include incorporating into our program planning and 
execution information contained in threat documents such as the 
Chemical, Biological, Radiological and Nuclear Capstone Threat 
Assessment developed by the Defense Intelligence Agency (DIA). 
Additional means of providing programs up-to-date threat information 
includes liaison between the Joint Program Executive Office for 
Chemical and Biological Defense and the IC. The Joint Program Executive 
Office for Chemical and Biological Defense has a full time senior staff 
intelligence officer to coordinate with the IC and to keep the entire 
command informed regarding the existing and emerging chemical, 
biological, radiological, and nuclear threat.
    Dr. Cerveny. The IC provides information critical to our technology 
development and requirements roadmaps. Additionally, our 
Nonproliferation R&D program managers and our laboratory researchers 
hold appropriate security clearances and are well-informed of threat 
analyses from the IC. We use the results of the threat analyses to 
guide and steer our investments in R&D to ultimately develop sensors to 
meet the present and future nonproliferation threat. As I noted in my 
testimony, there is a four-way Memorandum of Understanding (MOU) 
between Domestic Nuclear Defense Organization (DNDO)-National Nuclear 
Security Agency (NNSA)-DTRA-Director of National Intelligence (Science 
and Technology) identifying requirements and methods for collaboration 
and cooperation relating to nuclear detection technology development 
amongst the parties of the MOU.

    10. Senator Reed. Dr. Tegnelia, Major General Reeves, and Dr. 
Cerveny, how do you interface with the IC in general, for example, by 
providing some of the expertise of your organizations to support their 
assessments and analyses?
    Dr. Tegnelia. The DTRA has always sought to support the IC with our 
technical expertise, but we need to do more. Such interaction between 
the Nation's technical base and IC is especially important in the 
assessment of WMD threats, which by nature are both technically 
complex, and conjoined with potential courses of action to deter, 
reduce, or defeat those threats.
    Historically, the IC has engaged DTRA with questions related to 
nuclear weapon effects (as an example, to support assessments of 
threats from electromagnetic pulse (EMP)) or vulnerabilities of foreign 
military systems). However, the DTRA relationship with the IC has 
broadened and deepened as the Combating WMD mission has matured. 
Perhaps the best example of this new level of interaction is our full-
time participation in the DIA's Underground Facility Analysis Center 
(UFAC). DTRA engineers and scientists (which include members from our 
industry performer base) are embedded in the UFAC, providing 
engineering assessments about the construction, operation, and 
potential vulnerabilities of hardened and deeply buried targets. This 
close coupling not only improves the intelligence end product, but 
provides unique and timely insight to support DTRA research in weapon 
and intelligence, surveillance, and reconnaissance (ISR) concepts.
    The challenge ahead for DTRA is in providing such support across 
the entire WMD threat spectrum. To this end, we have launched a project 
with DIA to establish the ``Counter WMD Analysis Cell.'' The objective 
of this cell is to better integrate DOD and its interagency Combating 
WMD partners with the IC in the collaborative analysis of long-term, 
complex WMD threats.
    General Reeves. We routinely interface with a number of 
organizations within the IC, to include various offices within the DIA, 
Central Intelligence Agency, National Security Agency, the National 
Ground Intelligence Center, and the Armed Forces Medical Intelligence 
Center. Our coordination and collaboration with the IC includes 
informal information exchanges, requests for briefings, quick reaction 
responses to time-sensitive issues, attending scientific and/or 
intelligence related conferences and exhibitions, or formal requests 
for threat information via the Community On-Line Intelligence System 
for End Users and Managers. A specific example is the scientific and 
technical intelligence conferences hosted by the National Ground 
Intelligence Center on our behalf. The IC is consistently responsive to 
the Joint Program Executive Office's needs, and we enjoy an excellent 
collaborative working relationship.
    Dr. Cerveny. In general, NNSA's Nonproliferation R&D Office 
interfaces with the IC during R&D program reviews, proposal 
evaluations, and research proposal selection boards to coordinate and 
deconflict R&D thrust areas. Our technical program managers and lab 
advisors also serve as advisors to IC organizations as requested/
needed, above and beyond the general close collaboration/coordination 
of our programs. Often, our Nonproliferation R&D serves dual function 
as a technological foundation for the IC to develop systems.

                    challenge of stand-off detection
    11. Senator Reed. Dr. Tegnelia, Major General Reeves, and Dr. 
Cerveny, it seems that for all areas of combating WMD it would be 
extremely useful to be able to detect weapons or materials at stand-off 
distances. What do you see as the current limits for stand-off 
detection, and what do you think we can realistically achieve in the 
next decade?
    Dr. Tegnelia. Current fielded technology employs passive detectors 
that measure gamma and neutron radiation. Hand-held systems can detect 
a significant mass of fissile material (HEU or plutonium) at ranges of 
a few meters. Large vehicle or aircraft mounted systems can detect at 
ranges of 20 to 30 meters, with sufficient monitoring time. 
Unfortunately, the use of shielding and other countermeasures can 
greatly reduce detection ranges. Few of these specialized detection 
systems currently exist in the DOD, and most are employed by special 
units that are tasked with interdiction missions. Our research program 
emphasizes active detection techniques that can greatly enhance 
detectable signatures from fissile material, even in shielded 
configurations, as well as meet operational requirements of our 
warfighters including ease of deployability and sustainability, small 
physical footprint, long range, and persistent surveillance.
    The system with highest technological maturity is the stand-off 
photo-fission effort. This program has been under extensive 
development, test, and evaluation over the last several years, with a 
planned field demonstration this fall. A detection range of 100-200 
meters will be shown. Further enhancements to this technology may allow 
detection ranges of several hundred meters. The system employs a very 
high energy x-ray beam to interrogate an area, and cause fission in HEU 
or plutonium which enables its detection.
    We are also pursuing interrogation systems employing protons, 
muons, and gamma rays. These alternative technologies have significant 
merits including ranges that could exceed a kilometer, but are 
presently only in the early stages of R&D. Within the next decade, and 
with sufficient resources, initial operational capabilities based on 
photo-fission systems should be a reality, and several alternative 
technologies should be matured to the point where early operational 
assessments are possible.
    General Reeves. Our current limit for chemical and biological 
stand-off detection is the maturity of the technology available. We do 
think that some new technologies will mature within the next 5 to 10 
years (such as active and passive LIDAR technologies and hyperspectral 
imaging technologies), and that those technologies, combined with the 
system of systems approach may provide us with a means to provide early 
warning of chemical and biological hazards delivered in any state 
(aerosol, liquid, or vapor) out to ranges of 5 kilometers and beyond 
within the next decade.
    Dr. Cerveny. The issue of stand-off detection is a complex one and 
is approached differently by our R&D partners. For nonproliferation 
applications, we are certainly interested in increasing stand-off 
detection capabilities. Using passive detection, current limits of 
detection for unshielded nuclear material are generally in the range of 
several meters. Using advanced detection technologies like direct 
radiation imaging, detection can be extended to perhaps several 10s of 
meters in the most favorable of circumstances. For shielded nuclear 
material, which may prevent the emission of radiation, passive 
detection is much more challenging and may only be possible within 
several meters from the source, and perhaps not successfully at all. 
Active interrogation (using external sources of radiation to increase 
the radiation emission from nuclear materials) can increase detection 
distances and detection confidence for both shielded and unshielded 
material.

                          unfunded priorities
    12. Senator Reed. General Reeves, at the hearing you mentioned that 
you could supply a complete list of your underfunded priorities, if 
requested. Please supply that list.
    General Reeves. The U.S. Army has a list of underfunded priorities 
and is provided by the Special Assistant (Chemical and Biological 
Defense and Chemical Demilitarization Programs).
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                     nuclear consequence management
    13. Senator Reed. Dr. Tegnelia and Dr. Cerveny, you are both 
experts in nuclear technology. The nightmare scenario that is most 
frightening to many of us is a terrorist group acquiring a nuclear 
weapon and detonating it in an American city. How do you believe we can 
best prevent such a catastrophe, and how do you believe we can best 
prepare to manage the consequences of a nuclear detonation in an 
American city?
    Dr. Tegnelia. Real time, actionable intelligence that identifies 
pathways and sources of terrorist nuclear proliferation is vital. In 
addition, we must continue to improve detection capabilities so that 
they are more effective at longer ranges and against shielded material. 
The development of advanced forensics capabilities will contribute to 
deterrence, assist in preventing follow-on attacks from the same 
source, and provide critical information upon which the national 
leadership may take appropriate action. In addition, we need to 
vigorously exercise these capabilities.
    Dr. Cerveny. Terrorist detonation of a nuclear weapon is indeed a 
nightmare scenario and preventing it is a priority. First and foremost, 
preventing it means keeping the materials, technology, and expertise 
needed for a nuclear weapon from falling into the hands of terrorists. 
Without the material (HEU or plutonium) there can be no weapon. For 
that reason, NNSA is focused first on securing, removing, and 
downblending fissile materials all around the world. We are also 
working to detect and deter illicit shipments of nuclear material. NNSA 
works with various other U.S. Government agencies, including the DOD, 
the IC, the DHS, the State Department, the Department of 
Transportation, the Nuclear Regulatory Commission, and the Department 
of Justice, to accomplish many of these tasks. And we are working to 
strengthen the capabilities of other countries to do similar work, 
because the U.S. cannot do this task alone. The Nonproliferation R&D 
mission space does not include consequence management; therefore, I 
defer to my interagency colleagues to address consequence management.

    14. Senator Reed. Dr. Tegnelia and Dr. Cerveny, what are your 
organizations doing both to prevent and prepare for such a catastrophe?
    Dr. Tegnelia. The DTRA provides technical support to the IC to 
assist with the identification of potential proliferation pathways and 
sources. In coordination with our interagency partners, DTRA has the 
responsibility for executing the DOD portion of the nuclear defense 
mission, including the development of stand-off detection capabilities 
that meet DOD operational needs, and, as part of the National Technical 
Nuclear Forensics (NTNF) program, executes programs designed to provide 
high confidence technical conclusions about an attack to support 
attribution, facilitate government action, and stop subsequent attacks.
    DTRA also plays a key role in the exercising of these capabilities 
with the combatant commands (COCOMs) and our interagency partners. 
Specifically, DTRA directly supports COCOMs with a number of training 
events on an annual basis. The following are highlights of recent 
exercises focusing on nuclear and radiological incidents:

         Dingo King 2005: Exercise Dingo King 05 (DK 05) was a DTRA 
        sponsored nuclear weapon accident exercise conducted from 22-26 
        August 2005 in Kings Bay, Georgia, designed to exercise 
        Federal, State, and local emergency response and consequence 
        management (CM) actions. The response included extensive DOD 
        and Department of Energy (DOE) participation; local emergency 
        responders; County and State government agencies; field 
        involvement from other Federal agencies; and national play at 
        higher level headquarters at U.S. Northern Command and the 
        National Capitol Region.
         `A Kele 2006: The `A Kele Project was a State of Hawaii DOD-
        led and Defense DTRA-supported series of events designed to 
        explore State and on-island civil and military response to the 
        detonation of an improvised nuclear device (IND). The project, 
        conducted from 15-16 August 2006, in Honolulu, HI, included a 
        Command Post Exercise and three imbedded Field Training 
        Exercise vignettes. Additionally `A Kele included a series of 
        training sessions for participants and a Tabletop Exercise/
        Senior Leaders Seminar designed to provide key leaders with a 
        challenging forum for discussion of key issues related to the 
        response and recovery process required following an IND event 
        in Honolulu.
         National Level Exercise 1-07 (NLE 1-07) Vigiliant Shield 2007 
        (VS07) Nuclear Weapons Accident (NUWAX) Venue: The VS07 NUWAX 
        Venue was sponsored by DTRA and was independently controlled 
        and assessed at Davis-Monthan Air Force Base (DMAFB) in Tucson, 
        AZ. Held in December 2006, the VS07 NUWAX Venue was the first 
        NUWAX exercise to fully evaluate the response procedures 
        detailed in the National Response Plan and the updated Nuclear 
        Weapon Accident Response Procedures manual. It was also the 
        first NUWAX exercise to integrate a Joint Field Office into 
        incident response operations. As a result, many practical 
        lessons were learned regarding incident response and 
        interagency coordination.
         DTRA Support to U.S. Pacific Command (PACOM) in preparation 
        for TOPOFF IV: DTRA provided assistance to the PACOM staff, its 
        components, and other agencies in their preparations for TOPOFF 
        IV, one venue being a radiological dispersal device event in 
        Guam. TOPOFF IV involved more than 200 domestic and 
        international organizations, ranging from governmental agencies 
        at all levels to private industry and non-profit organizations. 
        The exercise took place in three American cities as well as 
        elsewhere in North America, in a U.S. territory, in Europe, and 
        in the Pacific region. Lessons learned from TOPOFF IV have 
        applications for response and recovery to major natural 
        disasters.

    At each of the above exercises, DTRA deployed Consequence 
Management Assessment Teams (CMATs) to the affected COCOM as well as 
augmented the Joint Staff Crisis Action Team in the National Military 
Command Center. DTRA also provided 24/7 reachback support for modeling 
and additional subject matter expertise. DTRA also maintains awareness 
of, participates in, and is a funding advocate for Advanced Concept 
Technology Demonstrations.
    Dr. Cerveny. As mentioned, NNSA is focused first on securing, 
removing, and downblending fissile materials all around the world. 
Within my own office, we are working hard to develop the technologies, 
tools, and techniques needed to detect the production and movement of 
nuclear materials. This effort includes advancing the state-of-the-art-
for-detection technologies. We also contribute to developing post-
detonation nuclear forensics capabilities in support of WMD 
attribution, in the event that our efforts at prevention fail. A major 
goal of our nuclear forensics program is to transition Cold War 
capabilities and methodologies to meet contemporary challenges. More 
specifically, we fund prioritized long-term investments, integrating 
capabilities and expertise at national laboratories, academia, and 
private industry with the goal of providing technology for prevention 
and preparation. Our focus is to develop long-term R&D programs that 
provide the technical means to detect the production and acquisition of 
special nuclear materials, nuclear material movement, nuclear 
detonation detection, and post-detonation nuclear forensics. In 
addition to strengthening prevention efforts, detection technologies, 
and interdiction programs, our efforts support NNSA's Office of 
Emergency Operations and other response agencies of the federal 
government (NNSA/DOE offices, DOD, DHS, FBI, FEMA, DTRA, and others) 
tasked with the massive response needed in the event of such a 
devastating catastrophe.

    15. Senator Reed. Dr. Tegnelia and Dr. Cerveny, how well do you 
think our Government is doing to prevent and to prepare for such an 
attack?
    Dr. Tegnelia. The DOD has invested heavily in technologies that 
should continue to improve our capability to interdict and render safe 
a nuclear device and, therefore, prevent it from detonating inside the 
United States. The National Technical Nuclear Forensics program is a 
critical component in the effort to dissuade our enemies from utilizing 
a nuclear device against us. Knowledge that we will be able to trace a 
device back to its source and rapidly strike back is a powerful tool in 
our deterrence arsenal.
    DTRA believes there has been substantial progress in preparing to 
meet such an attack. The National Guard has been particularly 
aggressive in developing capability to deal with the aftermath of a WMD 
attack. It has developed and fielded 57 full-time WMD Civil Support 
Teams, which are supported by the 24/7 DTRA Reachback capability. 
Additionally, the Guard is developing Chemical, Biological, 
Radiological, Nuclear, and High Yield Explosives (CBRNE) Enhanced 
Response Force Packages (CERFP) that have the ability to perform search 
and rescue in a contaminated environment, decontamination operations, 
and medical triage and initial treatment. We understand that there are 
12 CERFPs currently in the Guard force with an additional 5 authorized 
and funded by Congress.
    DOD has also identified the requirement for brigade-and-larger-
sized CBRNE Consequence Management Response Forces that, upon 
activation, will consist of both Active and Reserve units. The response 
and effectiveness of these Guard, Reserve, and Active Forces will 
depend upon the magnitude and number of WMD attacks the Nation faces.
    Additionally, through its exercise programs, the U.S. Government is 
better prepared to face the specter of a nuclear attack.
    Dr. Cerveny. I feel that the United States is making progress in 
integrating national expertise, infrastructure, and capabilities to 
meet the challenge.
    Both prevention of and preparation for a nuclear attack requires 
the collective efforts of multiple governmental agencies, leveraging 
investments to develop and maintain national capabilities. Since 
September 11, the U.S. Government has been developing methodologies and 
has been defining responsibilities for all participants. Agreements 
such as the four-way radiation detection document I mentioned 
previously are good examples of the mechanisms the government uses to 
prevent and prepare for such an attack.

                nuclear detection research coordination
    16. Senator Reed. Dr. Tegnelia and Dr. Cerveny, both the NNSA and 
the DTRA are conducting nuclear detection technology research. How is 
this work coordinated between your agencies, including the DTRA long-
range stand-off photo-fission work and the Germanium Spectrometer?
    Dr. Tegnelia. The interagency research portfolio and its 
coordinated investment strategy are summarized in the ``DHS Joint 
Report on Research and Development Investment Strategy for Radiological 
and Nuclear Detection'' Report to Congress (October 2007).
    DTRA works closely and directly with NNSA's Office of 
Nonproliferation Research and Engineering (NA-22), as well as the 
Domestic Nuclear Detection Office (DNDO) to coordinate and review 
research efforts. Details of this coordination were established in a 
formal MOU between the interagency, dated June 2007. Interagency 
coordination meetings occur regularly throughout the year to inform and 
communicate each agency's research portfolio, de-conflict funded 
research activities, and identify areas where mutual support can 
expedite research objectives. Workshops are planned and organized that 
address technical areas of mutual interest. A large interagency and 
national laboratory workshop was held last October specifically to 
address active interrogation technologies, to include the stand-off 
photo-fission work, and to develop a coordinated roadmap for these 
large scale efforts. The interagency also mutually participate in 
research proposal development, research proposal reviews, and funded 
research program reviews. Where joint investment is made by DNDO and 
DOE, such as in the germanium spectrometer and other advanced 
detectors, we work to ensure that efforts are complementary rather than 
redundant.
    Dr. Cerveny. As I mentioned in my testimony, NNSA and DTRA (and our 
predecessor organizations), have had an ongoing collaboration of 
efforts in nuclear detection technology research for nearly 60 years. 
There are numerous examples of cooperative R&D activities over this 
long partnership, and in fact several ongoing projects arc either co-
supported or leveraging both organizations' investment. The two 
technologies you've mentioned are excellent examples. Portable 
accelerator development and specialized sensor development for active 
interrogation via photo-fission are longstanding investment areas by 
both organizations. NNSA has provided support for the basic technical 
development, and DTRA is supporting development of the hardware 
necessary to deploy such capabilities on small mobile platforms for 
field use. There are several current High Purity Germanium (HPGe) 
detector development efforts ongoing and of interest to both 
organizations. By far, the most visible effort consists of the design 
and fabrication of a large array of very sizable HPGe detectors in a 
detection system designed for airborne platform pods. This system is 
being designed for long operation times in harsh environments and would 
be very valuable where operations offer limited time-on-target 
opportunities. Various organizations within DOD, including DTRA and 
several COCOMs, are engaged in taking this capability to a field 
demonstration in the near future.

    17. Senator Reed. Dr. Tegnelia and Dr. Cerveny, what are the 
challenges associated with detecting the most dangerous materials, 
namely, HEU and plutonium?
    Dr. Tegnelia. Special nuclear materials, i.e. HEU and plutonium, 
are of course radioactive and are the key ingredients of nuclear 
explosives. Detection of these materials is dependent on our ability to 
detect the radiation that they emit, usually gamma and neutron 
radiation. Unfortunately, these emissions are relatively weak, and with 
some forethought can be effectively shielded. HEU in particular is very 
difficult to detect. In metallic form it emits very few neutrons, and 
has very few gamma ray emissions at detectable energies. Some of the 
difficulties associated with HEU detection were raised in the April 
2008 issue of Scientific American. Detection is further limited by the 
rapid decrease in detectable radiation as distance from the material 
increases. Our research efforts are focused on overcoming these 
inherent challenges, with emphasis on active techniques that can 
greatly increase the signatures emitted by HEU and plutonium, even when 
shielded and at significant stand-off ranges. We are also pursuing 
passive detection technologies that more effectively detect the 
radiations emitted by these materials, and can distinguish threats from 
background radiation.
    Dr. Cerveny. Since both HEU and plutonium are radioactive special 
nuclear materials, they are detectable and identifiable by their unique 
radiation emission signatures. Detection techniques rely on the 
radioactive emissions of both neutrons and gamma rays from these 
materials. Not only is the presence of these emission particles 
important, but their energy content is as well. The difficulty resides 
in the low rates and low energies of radioactive emission for both HEU 
and plutonium, but especially for HEU. In many cases, the low emission 
rates dictate very long detection times. In addition to low emission 
rates, detection is made difficult by the preponderance of radioactive 
materials in the natural environment (background), which, in some 
instances, presents a radiation signature very similar to the threat 
materials. In addition, articles in the normal stream of commerce may 
contain legitimate and harmless radioactive materials. These materials 
are often referred to as Naturally Occurring Radioactive Materials 
(NORM). Examples include ceramic building tile, bananas, kitty litter, 
et cetera. At radiation portal installations, these NORM sources often 
cause false alarms. Finally, the radiation signatures from threat 
materials can be attenuated or ``shielded'' from detection by barriers 
between the threat source and the detector. High density materials, 
such as lead, are very effective gamma ray barriers, while low density 
materials such as polyethylene are effective at diminishing neutron 
emission. Therefore, a determined adversary has options to conceal the 
threat. Effective detection efforts must overcome these challenges to 
provide both a high confidence and a high probability of material 
interdiction capability. The NNSA, along with its partner agencies 
including DTRA and DNDO, is working on a broad spectrum of novel 
detection technologies that will provide continual improvements in our 
national capability to detect such threats.

                      massive ordnance penetrator
    18. Senator Reed. Dr. Tegnelia, the Massive Ordnance Penetrator 
(MOP) is a research project to develop and test an air-dropped weapon 
to defeat hard targets. Additional testing on the MOP is needed before 
operational integration commences, but I understand that there is not 
enough funding in the fiscal year 2009 budget request to complete the 
MOP testing. What additional testing should be completed before 
integrating the MOP on the B-2?
    Dr. Tegnelia. Congressional budget increases in fiscal year 2007 
and fiscal year 2008 for the Air Force already have been used to start 
critical long lead time MOP integration tasks with the B-2 bomber. No 
additional DTRA funding is required in fiscal year 2009 to support 
testing in advance of MOP operational integration with the B-2 bomber. 
The DTRA fiscal year 2009 budget request includes approximately $1.2 
million to continue development of the MOP, consistent with Air Force 
fiscal year 2009 budget request and plans. The DTRA fiscal year 2009 
funding would be used to conduct scaled fragmentation and penetration 
experiments to improve the accuracy of MOP phenomenology modeling 
within DTRA's Integrated Munitions Effects Assessment (IMEA) tool that 
is used by the COCOMs for weaponeering of Hard and Deeply Buried 
Targets (HDBTs). DTRA is currently transitioning the MOP technology 
development effort to the Air Force, and is not programming DTRA 
funding in fiscal year 2010 and beyond for the continuation of such 
work. However, if the Air Force MOP/B-2 integration program is 
accelerated, DTRA may support future testing to measure MOP lethality 
against representative HDBTs.

    19. Senator Reed. Dr. Tegnelia, what would the additional MOP 
testing cost in fiscal year 2009?
    Dr. Tegnelia. Since additional DTRA MOP testing is not required in 
fiscal year 2009, no additional funds are required.

                     radiation hardened electronics
    20. Senator Reed. Dr. Tegnelia, from its predecessor agency, the 
Defense Nuclear Agency, DTRA has the DOD lead for understanding 
radiation effects on electronics. These effects are of great importance 
to various space systems, including those systems that have to provide 
survivable protected communications. What is your assessment of the 
health of the DOD ability to keep pace with industry in developing 
radiation hardened electronics?
    Dr. Tegnelia. The health of the DOD's radiation hardened 
microelectronics capability is measured by the available technology to 
meet user needs for strategic space or missiles systems on the DOD 
Radiation Hardened Oversight Council (RHOC) roadmap. The DOD approach 
for radiation hardened microelectronics is to partner with industry for 
access to high volume and near-leading-edge products that are less 
expensive and have proven performance. This approach enables the DOD to 
leverage industry's development costs and efforts.
    Presently, the commercial semiconductor industry has placed 
unhardened 65nm technology into high production and is advancing toward 
having an unhardened 45nm technology production capability by 2009. The 
current state of the DOD radiation hardened microelectronics is at 
150nm and was developed under the now completed $278 million 
Accelerated Technology Program managed by DTRA. The 150nm technology 
will meet DOD requirements through 2012 at which time systems on the 
DOD RHOC roadmap begin to require 90nm radiation hardened technology.
    The DOD is in the early stages of demonstrating the application of 
90nm radiation hardened technology that would be produced in commercial 
high-volume foundries. However, in order to provide flight qualified 
90nm technology, additional investments will be required in 2010 and 
2011 to keep pace with the RHOC roadmap requirements beyond 2012.

    [Whereupon, at 3:52 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
